<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:36 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Murkowski, Blunt, 
Daines, Moran, Durbin, Tester, Udall, and Schatz.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. DR. HEATHER WILSON, SECRETARY


               opening statement of senator thad cochran


    Senator Cochran. The Committee on Defense Appropriations 
will come to order.
    We are here today to receive the submission by the 
Department of Defense, and the U.S. Air Force in particular, 
about the funding needs for the next fiscal year.
    We appreciate very much you providing us copies of the 
statements and responding to questions our staff has had with 
your staff members about this proposed budget for fiscal year 
2018.
    The purpose of this hearing is to specifically review the 
funding and the $132.4 billion in base funding and $13.9 
billion to support ongoing Overseas Contingency Operations. For 
those who love acronyms, that is referred to as OCO.
    The Air Force leadership has presented this fiscal year 
2018 submission to request investment of resources into 
improving war fighter readiness, achieving program balance, and 
building capacity. That is a big order, and we appreciate the 
fact that there have been a lot of people working long and hard 
to make choices that reflect our needs for the United States 
Air Force.
    Our witnesses this morning are Dr. Heather Wilson, 
Secretary of the Air Force and General David L. Goldfein, Air 
Force Chief of Staff. Secretary Wilson is making her very first 
appearance before the Committee as Secretary of the Air Force. 
She has more than 35 years of professional experience in a wide 
range of Government and private industry responsibilities.
    We look forward to hearing more about the details of the 
priorities and the appropriations needed to ensure that the 
United States Air Force is trained, equipped, and prepared to 
defend our interests around the world.
    We thank you for your presence and your discussions with us 
prior to the hearing in preparation for the hearing. We have 
statements that you have submitted to the Committee and we will 
see that they are included in the record.
    I will first recognize the Vice Chairman, Mr. Durbin, the 
Senator from Illinois, who is not here.
    Senator Shelby, do you have a statement?
    Senator Shelby. Thank you, Chairman Cochran, for holding 
this hearing to review the fiscal year 2018 budget request for 
the Department of the Air Force. I also want to thank Secretary 
Wilson and General Goldfein for joining us today. The goal of 
this hearing is to ensure that we are providing the necessary 
funds to train and equip our Air Force to fly, fight, and 
succeed in air, space, and cyberspace--maintaining our 
objective of global vigilance. We appreciate your service and 
look forward to hearing how your budget balances these 
important priorities.
    Senator Cochran. Are there other members of the Committee 
who would like to make an opening statement?
    Vice Chairman Durbin is our distinguished Senator from 
Illinois, and we are prepared to yield to him for any opening 
statement he would like to make.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Good morning, the subcommittee will come to order.
    Today we will receive testimony on the fiscal year 2018 budget 
request for the Department of the Air Force.
    The budget request recommends $132.4 billion in base funding and 
$13.9 billion to support ongoing Overseas Contingency Operations. The 
Air Force leadership shaped the fiscal year 2018 budget submission to 
invest resources into Improving Warfighter Readiness, Achieving Program 
Balance, and Building Capacity.
    Our witnesses are the Honorable Dr. Heather Wilson, Secretary of 
the Air Force, and General David L. Goldfein, Chief of Staff of the Air 
Force.
    We are pleased to welcome Secretary Wilson and General Goldfein for 
their first appearance before the subcommittee. Thank you for your 
service and leadership.
    We look forward to hearing more about your priorities and the 
appropriations needed to ensure the United States Air Force is trained 
and equipped to defend our interests around the world.
    Thank you for your testimony this morning. Your full statements 
will be included in the record.
    I now recognize Vice Chairman Durbin, the distinguished Senator 
from Illinois, for his opening remarks.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thank you very much, Mr. Chairman.
    Let me apologize. There were conflicting committee hearings 
with the judiciary committee. I tried to stop in there quickly 
and unfortunately, I am late here. I apologize.
    I am pleased to join you in welcoming the Secretary of the 
Air Force, the Honorable Heather Wilson and Chief of Staff of 
the Air Force, General David Goldfein, to our hearing and to 
review the budget for fiscal year 2018.
    Like each of our military services, I am seriously 
concerned that the President's budget proposal does not move us 
any closer to a budget deal or a solution to sequestration. We 
have to face that.
    If I sound like I started the day having a little drink for 
breakfast, it is because I just left the dentist. So forgive me 
if I sound a little slurred.
    Let me put the rest of my opening statement in the record 
with your permission.
    Senator Cochran. Without objection. It is so ordered.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming the Secretary 
of the Air Force, the Honorable Heather Wilson, and the Chief of Staff 
of the Air Force, General David Goldfein, to our hearing to review the 
Air Force's budget request for fiscal year 2018.
                             sequestration
    Like each of our military services, I am seriously concerned that 
the President's budget proposal does not move us any closer to a budget 
deal, or a solution to sequestration.
    The stakes are high. The Air Force stands to lose $15 billion in 
funding requested in its budget to sequestration. Even worse, those 
cuts could come in the form of mindless cuts to every line and program, 
preventing you from protecting important programs and sacrificing 
others.
    As of today, there are no ongoing negotiations to change the Budget 
Control Act's strict spending caps. It appears that this Congress is 
likely to do one of two things: provide more funding for the Defense 
Department through a massive OCO gimmick, or simply kick the can down 
the road for several months and hope that we stumble onto a solution 
for sequestration, perhaps even by accident.
    This is no way for the greatest nation on earth to run the world's 
most powerful military.
                            pilot shortfall
    There are two other matters that I hope the witnesses can address 
in their opening statements.
    General Goldfein, there are reports that the pilot shortage in the 
Air Force could reach as high as 1,500. This is particularly alarming 
because of the importance of our air power to reassure our European 
allies of our commitment to their defense, as well as current 
operations against ISIL.
    This subcommittee needs to know how this shortfall developed, what 
is being done about it today, and how this budget proposal will address 
the problem.
                             rocket engines
    Secretary Wilson, last year, the Senate voted to approve a plan to 
phase out the Russian RD-180 rocket engine, which is currently vital to 
our ability to launch certain satellites.
    Congress is doing everything in our power to make sure we replace 
this engine with an American-made one, as soon as possible. I would ask 
you to update the Subcommittee on whether this program is on cost and 
on schedule, and if there are any risks that we need to know about.
                               conclusion
    Mr. Chairman, thank you for calling this important hearing, and I 
look forward to hearing from our witnesses.

    Senator Cochran. Madam Secretary, we are pleased to 
recognize you as the Secretary of the Air Force for any opening 
statement you may have.

              SUMMARY STATEMENT OF HON. DR. HEATHER WILSON

    Secretary Wilson. Thank you, Mr. Chairman.
    I will say a few things, and make a few highlights, and 
then I will ask the Chief if he would do the same.
    A couple of things to, perhaps, take away from this 
hearing, and from the statement, and the budget that we have 
presented to you all. The first, and probably the most 
important, is that the Air Force is too small for what the 
Nation expects of it.
    The fiscal year 2017 budget began to arrest the decline and 
to restore the readiness of the force. So this budget, fiscal 
year 2018 budget, starts us, I hope, on the road to recovery.
    So what does it really do? What does this fiscal year 2018 
budget really do for the Air Force?
    It continues to recover readiness and for us, for the Air 
Force, readiness is first and foremost about people and their 
training. We are short of people and this budget starts to turn 
back up after about a decade of decline.
    The second big thing it does, with respect to readiness, 
has to do with munitions and we have several things in the 
budget that funds additional munitions to replace stocks.
    We also need to modernize the Force. So we are starting to 
recover readiness, but we have also got to modernize for the 
long term and make the Force more lethal.
    This budget funds 46 F-35 fighters, 15 KC-46 tankers, and 
continues the B-21 program to get that going, but it also has 
upgrades to a lot of other equipment; the F-22, the F-15, F-16. 
So there are a number of pieces of modernization in this budget 
in addition to readiness.
    I would like to talk for a little bit about space. I am the 
principal advisor to the Secretary of Defense with respect to 
space for all of the Department of Defense.
    The Air Force has been the leader on space for the Defense 
Department for 54 years. We provide GPS for the world. Most of 
you probably have it on your phones or drove here this morning 
using it. That is courtesy of six young airmen who live in 
Colorado Springs, Colorado.
    We do missile and nuclear detonation warning, weather, 
secure command and control of communications, all of that is 
enabled by the United States Air Force for the other services 
and for civil society.
    When General Goldfein and I were young officers, space was 
a benign place. In fact, it was a benign place probably up 
until the early 2000's. Actually, I served on the House 
Intelligence Committee in 2007 when the Chinese launched a 
kinetic intercept and destroyed one of its own dead weather 
satellites.
    It is not a benign place anymore. Our adversaries know that 
we are heavily dependent upon space capabilities and that we 
are vulnerable. We have to expect that war will extend into 
space in any future conflict.
    This budget proposal has a 20 percent increase for space. 
That means situational awareness, the ability to not just 
catalog what is up there, which we would do in a passive and 
benign environment, but to have a near real time understanding 
of what is going on in space, who is moving, and where they are 
moving to.
    Secure command, control, and communications of space. It is 
not to know where things are. We have to be able to control 
things in an integrated way. This budget funds an Integrated 
Battle Management Command-and-Control System for the Army, 
Navy, Air Force, and intelligence communities on the same floor 
looking at the picture in space and deciding what we should do 
to protect our assets there.
    We need assured access to space. Competition is reducing 
launch costs for satellites. We now have two providers for 
medium and heavy launch, the SpaceX Falcon 9 will go up again 
on August 17. And we have an emerging small satellite launch 
industry that is going to bring the costs of access to space 
down for the United States Air Force, which is a very good 
thing.
    We also need the ability to defend ourselves in space. That 
means systems, but also tactics and training. We need things 
like anti-jam GPS, which is funded in this budget.
    We have a National Space Defense Center that has been 
experimenting for a little over a year with new tactics 
techniques, and capabilities. They have identified the top 40 
user needs to be able to defend ourselves in space, to take a 
punch and keep on providing the services that people need who 
depend on space capabilities.
    Finally, training to prevail. We are changing the way we 
train our airmen who are operating space systems so that they 
have advanced wartime operations and concept development.
    So those are the things that we are doing with respect to 
space in this budget.
    Last week, I announced a reorganization within the 
Department of the Air Force with respect to space capabilities 
so that we integrate, normalize, and elevate space as a part of 
the joint war fighting team.
    And with that, I would like to ask if Chief Goldfein might 
be able to add some things.
STATEMENT OF GENERAL DAVID L. GOLDFEIN, CHIEF OF STAFF
    General Goldfein. Thanks, Madam Secretary and thank you, 
again, for stepping up to serve once again. It is an honor to 
serve with you these 39 years later. I am honored to fly on 
your wing.
    Chairman Cochran, Ranking Member Durbin.
    Thank you again for holding this hearing.
    I want to spend just a few moments and dive a little deeper 
into a statement the Secretary made about our Air Force being 
too small for the missions that the Nation relies on for us to 
perform today. Because many of the missions that we perform, 
both to defend the homeland and project power, and to do those 
missions that we do abroad, have become assumed capability to 
the American people.
    And so, I would like to walk you through the missions that 
we are doing now simultaneously to both defend the homeland 
from the homeland, project power forward, and what we do when 
we are deployed and based forward. And for the Air Force, it 
begins with the nuclear enterprise.
    Standing side by side with the United States Navy, we are 
responsible for two of the three legs of the nuclear triad: the 
bomber leg and the missile leg. And on our worst day as a 
Nation, our job is to make sure that we have the Commander-in-
Chief where he needs to be, when he needs to be there. Through 
Nuclear Command and Control, which we are responsible for, that 
he stays connected to a ready force to be able to defend this 
Nation and deter adversaries as we also assure our partners. 
For an airman, our nuclear enterprise--safe, secure, and 
reliable--is job one.
    To be able to get the indications and warnings he needs to 
make the decisions he needs to make on our worst day as a 
Nation, much of the intelligence surveillance and 
reconnaissance comes from space, whether we want to talk about 
early warning, protected communications, or as the Secretary 
mentioned, precision navigation and timing.
    Twelve constellations today are being flown by airmen and 
we join a long line of Secretary and Chief Teams who have been 
stewards of space since 1954, and we look forward to talking 
about more of that in this hearing.
    Someone has to turn the ones-and-zeros that we collect into 
a common operational picture and decision quality information. 
And that very often falls on 35,000 airmen who are in the 
Intelligence Surveillance and Reconnaissance business, ISR, as 
we call it.
    Whether we want to talk about airmen who are flying 
missions from Creech Air Force Base in Nevada, who are 
contributing to the fight against ISIS (Islamic State in Iraq 
and Syria) and other intelligence collection around the globe, 
or those who are doing the analytical work 35,000 airmen today 
are doing the work that presents that common operational 
picture for leaders to be able to make decisions.
    Side by side with our sister services, we are in the 
business of building cyber mission and cyber protection teams. 
You will see in this budget that we are on track to complete 
the 39 teams that we perform in terms of cyber defense and 
cyber offense.
    Just to put it in perceptive, in 2016 alone, there were 
over 1.3 billion adversarial connects into our networks that we 
were able to thwart. That turns into about 40 per second, when 
you do the math. And so, we do that with our sister services as 
we build the cyber mission teams that Admiral Rogers relies on 
to be able to defend the critical infrastructure of our Nation.
    If you heard jet noise this morning coming into the 
building, it very well may have been from two F-16's that 
scrambled from Andrews Air Force Base just as we do across the 
Nation to protect the critical infrastructure of this country 
and perform the work for General Lori Robinson in her role as 
the NORTHCOM Commander.
    Those are the missions that we do just here in the homeland 
to defend the homeland and project power abroad.
    Now, let me shift to what we do across the globe when we 
are faced forward and deployed forward. It begins with gaining 
and maintaining air superiority, which is the freedom from 
attack and freedom to maneuver.
    For airmen, it is nothing short of a moral obligation to 
ensure that we establish air superiority quickly whenever and 
wherever it is required.
    Put it very simply, when a soldier, sailor, airman, or 
marine are on the ground, and they hear jet noise, we never 
want them to look up. We want them to know it is us.
    Once we have achieved air superiority, we operate on a 
system of bases across the globe. Every 2\1/2\ minutes, an Air 
Mobility Command aircraft takes off or lands somewhere on the 
globe to deliver critical supplies or personnel when and where 
they are needed.
    Many of those bases are in under-governed territories or in 
unsecured areas. And so, we rely on our special forces, our air 
commandoes, to go and to secure those bases. I would offer to 
you that we are a global power because of our ability to 
achieve global reach.
    I cannot give you a better example of holding targets at 
risk with precision strike than launching two B-2's from 
Whiteman Air Force Base in January, fly 32 hours roundtrip, 16 
air refueling, and hit two targets with 80 precision guided 
munitions within 10 seconds of their planned time over target.
    Finally, in the fight against ISIS, Lieutenant General 
Harrigian commands a force of over 16 nations that are 
committed to the fight against ISIS. It is the United States 
Air Force that is leading the charge in terms of taking the 
attack to the enemy.
    Whether you want to talk about the fighters that are 
overhead, whether you want to talk about the command and 
control, the tankers, we provide about 70 percent of the force.
    To put this in perspective, in 1991 had I been talking to 
the Air Force as the Chief of Staff, I would have been talking 
to an Air Force of just shy of 1 million active Guard and 
Reserve, and civilian airmen. Today's Air Force is a total of 
660,000; over 30 percent smaller.
    If I had been talking to an Air Force in 1991, I would have 
been looking at an Air Force of over 8,600 aircraft, 134 
fighter squadrons from which we deployed 34. Today, the grand 
total in your United State Air Force active Guard and Reserve 
is 55 squadrons total.
    This is a much smaller force that is engaged in the same 
level of activity as we were in 1991 to emphasize the 
Secretary's point that we are too small for what the Nation 
requires us to do.
    We did not get here overnight. We will not recover 
overnight. But with your help, if we move beyond sequester and 
the damaging effects that that has caused the Air Force that we 
are still recovering from, the last round, and if we can get 
continuous, stable budgets we can turn this around. And with 
your help, we will provide our airmen the quality of service 
and the quality of life that they so richly deserve.
    Thank you, Chairman. I look forward to your questions.
    [The statement follows:]
           Prepared Statement of Hon. Dr. Heather Wilson and 
                       General David L. Goldfein
                   the future of air and space power
    Air and space power are vital to our Nation's security. Any 
objective evaluation of today's U.S. Air Force reaches stark 
conclusions.
  --First, the Air Force is too small for the missions demanded of it 
        and it is unlikely that the need for air and space power will 
        diminish significantly in the coming decade.
  --Second, potential adversaries are modernizing and innovating faster 
        than we are, putting at risk America's technological advantage 
        in air and space.
    The resources provided in fiscal year 2017 have begun to arrest the 
readiness decline. The fiscal year 2018 President's Budget request 
begins to restore readiness and increase the lethality of the force. 
Future budgets must focus on modernization and continued readiness 
recovery so that we can defend the homeland, own the high ground, and 
project power in conjunction with allies.
                         an air force in demand
    Today's Air Force is growing after a period of significant decline 
and we must continue to increase the size of the force. Currently, the 
Air Force includes 660,000 active, guard, reserve and civilian Airmen, 
compared to 946,000 just 26 years ago when we fought in Operation 
Desert Storm--a 30 percent reduction.
    The Air Force also reduced its aircraft inventory over this same 
period from 8,600 to 5,500 aircraft. We have 55 combat-coded fighter 
squadrons across the active duty, guard, and reserve, compared to 134 
squadrons during Desert Storm.
    Before 1991, the Air Force bought approximately 510 aircraft per 
year. In the past 20 years, we have averaged only 96 per year. Today, 
the average age of our aircraft is over 27 years.
    And, unlike during the Cold War, Air Force aircraft have been 
flying in combat for 26 straight years. When the Islamic State of Iraq 
and Syria (ISIS) sought to consolidate power in Syria and northern Iraq 
in 2014, the U.S. Air Force surged to the fight. Since then, Airmen 
have executed over 70 sorties daily against ISIS targets. Coalition air 
forces have put over 80,000 weapons against enemy targets in over 
26,000 airstrikes in Iraq and Syria since the campaign began. Over 70 
percent of those strikes have been conducted by the U.S. Air Force.
    Last year alone, MQ-1 and MQ-9 remotely piloted aircraft crews flew 
more than 351,000 hours and employed more than 3,000 weapons, removing 
thousands of enemy combatants from the battlefield and protecting U.S. 
and coalition forces.
    Air Force intelligence, surveillance and reconnaissance provides 
warfighters over 6,000 intelligence products per day that are used to 
identify enemy targets and initiate 70 percent of Special Operations 
Forces assaults on terrorists.
    Air Force-operated space-based sensors provide around-the-clock 
global coverage for missile warning, nuclear detonations and other 
threats.
    And Air Force cyber operators blocked more than 1.3 billion 
malicious connections in 2016 alone, an average of more than 40 
malicious connections per second.
    While we continue to extend the life of old aircraft, materials 
suffer fatigue and maintaining old equipment is time consuming and 
expensive.
    We are short of maintainers and pilots. While flying hours to 
defeat ISIS overseas is a priority, training to confront near peer 
adversaries has suffered. We are at our lowest state of full spectrum 
readiness in our history. Only 50 percent of our squadrons are ready to 
conduct all of the missions assigned to them.
    The decisive warfighting advantages we hold over our near peer 
adversaries are diminishing.
    Air and space superiority--owning the high ground--is not America's 
ordained right. We cannot take it for granted. We must plan for it, 
equip for it, train for it, and fight for it.
                   the changing security environment
    Adversaries are rapidly developing new capabilities to control air 
and space. They seek to undermine the credibility of our alliances, 
contest our freedom of maneuver, and neutralize our ability to project 
power. Over the past several years, their targeted investments in 
critical capabilities have outpaced our own.
    Russia continues its aggression and malign influence in Ukraine and 
Syria while seeking to return to great power parity with the U.S. by 
modernizing its military.
    China is fielding new defense platforms at a startling pace and 
continues to expand its regional influence in the East and South China 
Seas.
    North Korea is accelerating nuclear and missile testing. Their 
actions in the Pacific increase risk of miscalculation and threaten the 
security of our allies and the homeland.
    Iran continues to support international terrorist organizations and 
extend its negative influence throughout the Middle East while 
modernizing an array of military capabilities.
    Each of these state actors possesses or is pursuing advanced long-
range capabilities with the potential to strike American soil.
    At the same time, violent extremist organizations and individuals 
inspired by them are threatening America and our allies.
    Potential adversaries are quickly closing the gap in the decisive 
warfighting advantages we have held for decades. As their capabilities 
become stronger, the international order will grow more unstable and 
the strategic risks to American security and our global interests will 
increase. Staying ahead of these trends will require a concerted, 
coordinated effort.
                          stopping the decline
    The Consolidated Appropriations Act of 2017 begins to arrest the 
decline and focuses on starting to restore the readiness of the force. 
The funds for fiscal year 2017 address critical capability shortfalls, 
and enable us to start to address delayed procurement and modernization 
of our force. This is a critical first step in restoring the Air 
Force's capabilities to meet future threats. We must have stable, 
predictable budgets that include strategy-driven funding.
    We also add our voice to the chorus of concern that budget 
instability is itself a significant problem. Continuing resolutions, or 
worse, sequestration, puts at risk our ability to successfully 
accomplish what our Nation asks of us.
    A failure to provide relief from the current Budget Control Act 
caps would cut $15 billion from the Air Force budget--a reduction that 
would further hollow out the force and set us back years.
                          restoring the force
    Looking ahead, we are focused on restoring readiness, cost-
effective modernization, innovation for the future, and developing 
exceptional leaders. These areas of focus will allow us to defend the 
homeland, own the high ground, and project power in concert with our 
allies.
    Of course, there is an assumption behind our plans. As a Nation, 
since the end of World War II, America has chosen to be a global power, 
capable not only of defending the homeland, but gaining and maintaining 
dominance over areas of operation abroad. We have an Air Force that 
provides global mobility, global intelligence surveillance and 
reconnaissance, global strike, and global command and control to 
protect our vital national interests in concert with allies.
    Threat drives strategy; strategy drives force posture. America's 
national security interests continue to be global in scope, requiring 
an Air Force which goes beyond homeland defense or regional power 
projection.
                          restoring readiness
    The Air Force budget recognizes that we cannot restore our 
readiness in a single year. When we lose an F-22 avionics specialist 
with 10 years of experience, we cannot hire another person with 10 
years of experience on the F-22. We have to recruit them, train them, 
mentor them and, most importantly, retain them.
    For the Air Force, readiness is first and foremost about people.
                     personnel--restoring readiness
    The fiscal year 2017 budget increased active duty manpower to 
321,000 Airmen. The fiscal year 2018 President's Budget request 
continues to rebuild the force to 325,100 active duty Airmen, while 
also adding 800 reservists, 900 guardsmen, and 3,000 civilians. The 
Total Force will increase to 669,611 people from 660,707 in fiscal year 
2017. The additional personnel are focused on increasing maintainers--
particularly for the F-16 and F-35A, increasing remotely piloted 
aircraft crews, and increasing pilot training capacity by adding two 
new F-16 formal training squadrons. It also allows us to reduce 
critical gaps in our space, nuclear, cyber, and intelligence career 
fields.
    Pilot retention continues to be a significant concern. We project a 
deficit of approximately 1,500 total active, guard, and reserve pilots 
at the end of fiscal year 2017 and trending further negative in the 
near term. Our fighter pilot shortage has already reached crisis levels 
and we will be approximately 1,300 Total Force fighter pilots below the 
requirement at the end of this fiscal year. There will be no single 
solution and no quick fix for the pilot shortage. This budget expands 
pilot training, continues incentive pay and bonuses, increases 
administrative support at the squadron level, improves readiness, and 
funds flying hours.
    This budget request also includes 1,168 military and civilian 
positions to support squadron commanders so that ``additional duties,'' 
which were shifted to operators, aircrew, and maintainers over years of 
personnel cuts and most recently in the wake of sequestration and the 
Budget Control Act, can be performed by dedicated support staff.
    Squadrons are where readiness is generated and sustained, and where 
Airmen and families thrive. It is also where leadership matters the 
most. We are working to revitalize squadrons as the most essential 
level of command and the heart of our Air Force. Over the coming year, 
the Air Force will be reviewing leadership development, particularly at 
the squadron level.
    In order to restore readiness, the budget request includes $6.2 
billion to fund flying hours at maximum executable levels and $11.9 
billion to fund weapons system sustainment (parts, maintenance and 
logistics support) to near the maximum executable level. While the 
budget for flying hours decreases slightly from fiscal year 2017, this 
reduction is largely because of a decline in fuel costs.
    Further, the fiscal year 2018 President's Budget request funds a 
continuation of 641 active, guard, reserve, and civilian positions 
dedicated to Sexual Assault Prevention and Response (SAPR).
    Finally, this budget request is vital for the quality of life for 
our Airmen and their families--funding a 2.1 percent increase in 
military pay, a 3.2 percent increase in basic allowance for housing, 
and a 3.4 percent increase in subsistence.
                     munitions--restoring readiness
    In addition to adding people and training, this budget request also 
addresses munitions. In the fight against ISIS in Iraq and Syria, the 
Air Force has delivered more than 56,000 direct attack munitions from 
the air. That is more than we used in all of Operation Iraqi Freedom.
    Our use of munitions in operations is out-pacing production. 
Working with industry, the fiscal year 2018 President's Budget request 
funds maximum factory production of the most critical munitions, 
including the Joint Direct Attack Munition, the Hellfire missile, and 
the Small Diameter Bomb.
                      cost-effective modernization
    While restoring readiness is primarily about the size of the force, 
quality training, and munitions, for the long term the Air Force must 
modernize its weapon systems and equipment to defeat emerging threats.
    The fiscal year 2018 President's Budget request budget prioritizes 
our top three acquisition programs to modernize the force: the F-35A 
fighter, the KC-46 tanker, and the B-21 bomber.
    The F-35A is essential to our national security--a stealthy multi-
role fighter needed to own the high ground and project power against 
increasingly capable adversaries. This budget request funds the 
purchase of the next 46 F-35A fighters with a goal of reaching 60 per 
year in the future. The budget also focuses on restoring readiness and 
modernizing our 55 combat-coded fighter squadrons.
    We have enhanced our air refueling capability by entering initial 
production of the KC-46 Pegasus tanker. The KC-46 program modernizes 
our aerial refueling fleet, providing global mobility for the joint 
force and our allies. The fiscal year 2018 President's Budget request 
buys 15 more KC-46 aircraft. The Air Force expects to sustain steady 
state production of 15 KC-46 aircraft a year throughout the Future 
Years Defense Program (FYDP).
    We are rapidly developing the B-21 Raider long-range strike bomber. 
The B-21 will form the backbone of our future bomber force, ensuring 
the ability of our Nation's leaders to hold targets at risk around the 
world with both conventional and nuclear weapons.
    While the F-35 fighter, the KC-46 tanker and the B-21 bomber are 
our top modernization priorities, there are a number of other 
modernization efforts supported in the fiscal year 2018 President's 
Budget request. These include the modernization of F-22A, F-15, and F-
16 aircraft so that they remain viable, along with B-52, B-1, and B-2 
bombers for strategic delivery of advanced munitions.
    In the realm of intelligence, surveillance and reconnaissance, the 
Air Force continues to support the MQ- 9 Reaper, RQ-4 Global Hawk, and 
RC-135 Rivet Joint upgrade strategies.
    The fiscal year 2018 President's Budget request supports special 
operations and combat search and rescue with the purchase of two HC-
130J and five MC-130J aircraft. We also sustain our commitment to 
command and control by funding several upgrades to the E-3 Airborne 
Warning and Control System (AWACS).
                   modernizing the nuclear deterrent
    All legs of our nuclear triad need to be modernized. The last major 
recapitalization of U.S. nuclear forces occurred in the 1980s. In the 
case of the Air Force, maintaining our aging nuclear weapons systems 
remains critical but it becoming more expensive and less practical.
    Nuclear deterrence underpins national security for the United 
States and our allies. The Air Force stewards two legs of the Nation's 
strategic nuclear deterrent and operates 75 percent of the nuclear 
command, control, and communications for the President and the military 
chain of command. Additionally, forward-based nuclear capable aircraft 
are a key component of the U.S. commitment to deter attack on our 
allies.
    The intercontinental ballistic missile (ICBM) force represents the 
most responsive leg of the nuclear triad. The dispersed basing of our 
land-based deterrent enhances strategic stability by creating an 
extraordinarily high threshold for a large-scale conventional or 
nuclear attack on the U.S. homeland. The air-delivered leg of the triad 
and dual-capable fighters provide a recallable, and highly visible 
force to extend deterrence, demonstrate resolve, and signal U.S. 
strategic commitment to our allies.
    In addition to the B-21 bomber, the Air Force is committed to 
modernizing the nuclear enterprise by replacing Air-Launched Cruise 
Missiles with the Long Range Stand-Off cruise missile, modernizing 
ICBMs with the Ground Based Strategic Deterrent (GBSD), replacing the 
UH-1N helicopter, and making targeted investments in nuclear command, 
control and communication.
                        meeting the space threat
    For decades, the United States enjoyed unimpeded freedom of action 
in space. This benign environment allowed us to operate satellites for 
intelligence collection, missile warning, weather monitoring, 
communications, and precision positioning, navigation, and timing 
without considering how to protect these systems. That environment no 
longer exists. Our adversaries understand the advantages we derive from 
space and are actively pursuing capabilities to diminish them. In 
future conflict, space will be contested.
    The Air Force has been the leading military service responsible for 
space systems for 54 years, and the Secretary of the Air Force is the 
principal advisor to the Secretary of Defense on space.
    Over the last several years, the U.S. Air Force has been developing 
operational concepts to ensure freedom of action in space, changing the 
way we train our space force, and integrating space with the joint 
force.
    The fiscal year 2018 President's Budget request increases the Air 
Force's space investment funding from $6.5 billion in fiscal year 2017 
to $7.8 billion, a 20 percent increase. This increase represents a 27 
percent increase in research, development, testing and evaluation 
(RDT&E) for space systems and a 12 percent increase in space 
procurement.
    The budget request includes a fixed price block buy of Space Based 
Infrared Systems (SBIRS) 5 and 6 satellites. The budget funds purchase 
of terminals, ground control systems, and related communications 
security for satellites and funds three launches as part of the Evolved 
Expendable Launch Vehicles (EELV) program.
    To fill a gap in weather coverage, the budget request funds a 
weather satellite through the Operationally Responsive Space (ORS) 
office.
    While our existing Global Positioning System (GPS) satellites 
remain healthy, we face increasing risk from potential adversary 
advances, and will improve anti-jamming and secure access to military 
GPS.
    The Air Force budget also funds the continuation of the Space 
Security and Defense Program and the National Space Defense Center 
where we are experimenting with concepts to ensure freedom of action in 
space and resilience in an integrated center that includes all sister-
services, as well as the intelligence community. It also funds 
improvements in space situational awareness, which is foundational for 
space control, integrated ground systems and improved training of space 
forces.
    Our budget supports the continued integration and normalization of 
space in the joint warfighting environment and places a high priority 
on space to ensure that our space systems continue to operate in a 
contested environment. We would prefer that war not extend into the 
space domain, but must be prepared to win if it does.
                           modernizing cyber
    The fiscal year 2018 President's Budget request funds 39 offensive 
and defensive cyber teams that are on track to be fully operational in 
fiscal year 2018. The budget anticipates an increased reliance on 
contractors for basic information technology and cloud services so that 
military members can focus on advanced threats and warfighter missions 
as part of the joint force.
                       innovation for the future
    Research, development, test and evaluation are critically important 
for a technically oriented service. The fiscal year 2018 President's 
Budget request includes a significant increase in funding for systems 
development and testing for the B-21, the Global Positioning System 
Operational Control System (OCX) and the Long Range Standoff cruise 
missile. Funding is also included for engineering and risk reduction 
for the Presidential Aircraft (PAR), Joint Surveillance and Target 
Attack Radar System (JSTARS) replacement, and the new Combat Rescue 
Helicopter.
    Funding for basic and applied research related to longer-term 
national security challenges remains flat in this budget request, 
although funding for long term research on air dominance is increased 
significantly. Over the next several years, the Air Force will seek to 
increase basic and applied research in areas where we must maintain the 
competitive advantage over potential adversaries, including game-
changing technologies like hypersonic vehicles, directed-energy, 
unmanned and autonomous systems, and nanotechnology.
                        accelerating procurement
    To prevail against a rapidly innovating adversary, the Air Force 
must get capability from the lab bench to the warfighter faster than 
ever before.
    In the fiscal year 2017 National Defense Authorization Act, 
Congress expanded acquisition authorities for the services. Taking 
advantage of this flexibility, the Air Force is sponsoring an 
experiment in August 2017 to evaluate low-cost, permissive environment 
attack aircraft. While this is an experiment, not a procurement, the 
project has gone from approval by the Chief of Staff of the Air Force 
to an operational capabilities assessment in five short months.
    The Air Force is also testing new procurement methods with early 
stage, highly innovative companies who do not normally do business with 
the Department of Defense. If successful, we will seek to replicate 
this approach. While not appropriate for large system development, 
these kinds of projects can open the pathway to rapid innovation for 
air and space dominance.
                infrastructure and military construction
    Constrained by the Budget Control Act, the Air Force has 
prioritized combat and not infrastructure. The fiscal year 2018 
President's Budget request includes $2 billion for military 
construction. The beddown of new missions, combatant commander needs, 
and strengthening the nuclear security enterprise have been given 
priority for the limited funding available.
    In addition, the fiscal year 2018 President's Budget request funds 
construction of improved ranges at the Utah Test and Training Range and 
Red Flag in Nevada so that we can train using the full range of 
capabilities available to our aircrews in the F-35A. The budget also 
funds additional virtual and constructive, or ``synthetic'', 
Operational Training Infrastructure (OTI). Synthetic capability 
provides opportunities to test and train against the world's most 
significant threats at reduced cost.
    The Air Force supports the Department of Defense request for 
authorization to conduct a Base Realignment and Closure (BRAC) round in 
fiscal year 2021. Completing the more detailed analysis once a BRAC is 
authorized will have value, and may highlight opportunities for some 
savings. Enduring savings from BRAC recommendations will leave more DoD 
resources available for future force structure or readiness 
requirements. BRAC also allows us, if the analysis supports it, to 
reposition forces or station new forces in locations that optimize 
their military value.
                               conclusion
    The fiscal year 2018 President's Budget request begins to restore 
Air Force readiness with a focus on people, high quality training, 
squadron support, and critical munitions.
    The budget request also invests in top priority procurement to 
increase the lethality of the force with the F-35A fighter, KC-46 
tanker, and the B-21 bomber while also making significant investments 
in space, the nuclear deterrent, and special operations.
    As we enter our 70th year as a separate service and our 26th year 
of continuous combat operations, we have presented a budget that starts 
to turn the corner by building on the fiscal year 2017 budget that 
arrested years of decline.
    As important as program funding is, we also need budget certainty. 
A return to the current Budget Control Act caps will pose 
unmanageable--and unacceptable--risks to our ability to protect 
America's vital national interests.
    We request that Congress support this budget and provide fiscal 
predictability for the Air Force so that we can support the National 
Military Strategy by defending the homeland, owning the high ground, 
and projecting power in conjunction with allies.

    Senator Cochran. Thank you very much, General Goldfein and 
Madam Secretary Wilson.
    Give us the benefit of your oversight of what we should be 
doing about pilot shortages. We know that there are increases 
needed in training at Columbus Air Force Base in Mississippi, 
for example. We understand there are demands throughout for 
more pilots to be trained in the future than are now being 
trained.
    Could you give us an overview of what the challenges are? I 
would like both of you to respond to the question.
    General Goldfein. Yes, sir.
    Just a couple of numbers upfront just to put it in 
perspective, we require an Air Force of about a little over 
20,000 pilots to do all the missions that we perform. Right 
now, we are about 1,555 overall short.
    The most critical point right now, we are finding, is in 
the fighter pilot business where we are about a little over 
1,200 short of what we need. So the way we are attacking this, 
actually, is through a number of different activities.
    The first thing we are doing is we are having a national 
level discussion. I hosted a meeting with airline CEO's, both 
majors and regional and the key industry partners. We 
acknowledged the fact that as a Nation, we do not produce the 
number of pilots that we require nationally to service both 
defense and commerce.
    And so, we are looking at a number of working groups that 
we have now established to take a look at how we increase the 
supply across the Nation beyond just what is required for the 
military because the airlines are desperately short of the 
pilots they need. So first of all, we are attacking it at a 
national level.
    Then within the military, what we are looking at is what 
can we do to improve the quality of service and the quality of 
life associated with duty as an airmen in the Air Force, as a 
pilot, so that we can increase our retention rates?
    We appreciate what Congress has done by allowing us to up 
the aviation bonus to $35,000 which we think is going to have 
an effect. And so, what we have done is we have tiered that on 
a business case analysis based on the greatest need to ensure 
that we are paying money to those that we have to retain the 
most, relative to the amount of time it takes to replace them.
    The second thing that we are doing is the Secretary and I 
are working on a number of initiatives to improve quality of 
service, and that goes to getting them in the air.
    Pilots who join the Air Force join to fly high performance 
aircraft. Pilots who do not fly, maintainers who do not 
maintain, air traffic controllers who do not control are not 
going to stay with us. So you will see in this budget 
investment in getting pilots airborne.
    We are looking at a number of initiatives to be able to 
reduce what we call the irritants, and those things that are 
actually degrading readiness over time in the force in this 
much smaller force that is heavily tasked to ensure that we 
increase white space on their calendar.
    So all of those things that we are doing, both at the 
national level within the service and across the Joint Chiefs, 
we are attacking to get after this.
    Senator Cochran. Secretary Wilson, would you like to 
respond to that question?
    Secretary Wilson. Sir, just to add a few things into what 
General Goldfein said.
    Readiness is a retention issue. If we are asking pilots to 
do a job and we are not giving them the flying hours and the 
support they need to do the job, they are much more likely to 
leave. So if we can increase readiness and make sure that those 
jets are ready to go when they go out to the flight line that 
helps.
    I would also say that in this budget, there are over 1,000 
new positions to add in at the squadron level. Life for an 
airman is at the squadron level. And when the Air Force went 
through sequester before, a lot of that support was taken out. 
So you had pilots doing things like scheduling and other things 
that were additional duties that they probably should not have 
been doing. So this puts more support back in at the squadron 
level with over about 1,000 people.
    There is not going to be one solution to this. We are 
increasing pilot training from about 1,200 a year to 1,400 a 
year. But we have got to do a hundred little things to increase 
retention in the force.
    Just as one example, the Chief went out and talked to a lot 
of pilots on what are the irritants? And one of them was the 
explosion of required online distance training. You have to go 
through the road training stuff on the computer every year and 
there were actually 69 required hours every year of this stuff 
that had just accreted over time, whether it is safety training 
for how to use the fire extinguisher or whatnot.
    Some of that is important, but we reviewed it all and then 
we reduced it from 69 hours down to 8 hours of mandatory 
distance-delivered training.
    So let us get some of the gunk out of the system, and make 
it a little cleaner, and improve the quality of life, and 
quality of service.
    Senator Cochran. The chair recognizes the Senator from 
Illinois, Mr. Durbin.
    Senator Durbin. Thanks a lot, Mr. Chairman.
    And following up on that, I am told that one of the reasons 
that pilots do not get enough flying hours is because of the 
shortfall in aircraft maintainers; 3,400 aircraft maintainers 
short of what you need.
    As a result, the Air Force cannot guarantee the sorties 
needed to fully train its aircrews. This budget includes 1,000 
new maintainer positions. It takes 5 to 7 years to train 
someone to be an aircraft maintainer.
    The situation, the way I see it, gets a little more complex 
when you look at your recruitment, although you are meeting 
targets, it appears, for active duty and for Air Reserve. Well, 
I know there is an issue with pilots in the Air Reserve, which 
we had discussed.
    General recruiting, you are requesting doubling the amount 
that is allocated for advertising and recruitment, which is a 
signal to me that you need to put in more resources to get the 
men and women into the Air Force that have the potential of 
filling these important positions like maintainers and such.
    Then I go through the analysis of who is eligible, who 
could be recruited. It turns out fewer than a third of those 
who apply can be accepted. Others are disqualified for a 
variety of reasons; 71 percent are disqualified. Medical issues 
are a big part of this, the largest disqualifier being 
overweight, 17 percent; psychiatric issues, 13 percent; skin 
and allergy, 10 percent; lung and chest including asthma, 6\1/
2\ percent.
    The next is 17 percent eliminated because they do not score 
well, either their educational achievement or their scores; 
then comes conduct violations. And then comes a long list that 
we have learned of things that used to disqualify you, which 
now no longer disqualify you for service in the Air Force. So 
it appears that standards are at least being changed, if not 
weakened and diminished.
    So I look at the overall picture here in terms of 
readiness, and it looks like we are quite a few steps away from 
where we want to be, and our first problem turns out to be the 
quality of recruits. The availability of quality recruits.
    I know you want the best, and we do too, to protect our 
Nation, and to serve in the Air Force, and our military 
service.
    I step back from this and say, it turns out that part of 
the problem with getting readiness into the military is getting 
readiness into the American population. Our young people are 
not prepared to even serve their Nation here by your standards 
that you have established.
    And as we cutback in areas like healthcare, which we are 
now debating in the Senate, as we cutback in areas like 
educational investment, it diminishes the likelihood we will 
have a pool of quality recruits in the future.
    So I wish you would comment on that, either one or both of 
you, please.
    Secretary Wilson. Senator, I just came to the Air Force 
from being a President of a university in South Dakota, and 
talent is in demand at every university, and in the United 
States Air Force as well.
    The Air Force is a highly technical service and we try to 
recruit the best we possibly can. They have to be worldwide 
deployable and all of those kinds of things.
    Fortunately, the Air Force has never once in its history 
ever had to draft anyone because we have always had enough 
willing volunteers, who are highly qualified, who want to serve 
in the United States Air Force, and we are proud of that.
    We do want the best and brightest, and we are increasing 
the number of people we are taking in, in order to increase the 
size of the Force. But as they get trained, they become more 
and more valuable. That is true in cyber. It is true in 
maintenance. It is true in pilots. So we have highly capable, 
qualified folks with a lot of experience.
    The issue with readiness is that if I lose a maintainer on 
the F-22 at a 10-year point, I cannot just hire a maintainer 
with 10 years of experience on the F-22. We have to grow them.
    One of the biggest challenges is actually absorbing those 
young people into a maintenance squadron, and giving them the 
mentorship, and the time on task with a more senior airman to 
teach them the ropes.
    So it is the absorption problem that is actually one of our 
biggest challenges.
    Senator Durbin. But you are asking to double the 
advertizing and recruiting budget for the Air Force?
    Secretary Wilson. I am not sure it is double, but I can 
check that for you.
    Senator Durbin. I think it is a pretty substantial 
increase.
    Senator Cochran. The time of the Senator has expired.
    Senator Durbin. Thank you.
    Senator Cochran. The distinguished Senator from Alabama is 
recognized.
    Senator Shelby. Thank you, Mr. Chairman.
    General Goldfein, I will start with you.
    I believe it is very critical that we deliver the fifth 
generation fighter to maintain our air superiority. It is also 
important for the Air Force to train, as we have been talking 
about, this next generation of pilots for these advanced 
aircraft, as well as pilots in general.
    I understand that you are in the middle of competition to 
replace the current fleet of the T-37 aircraft that are, on 
average, 44 years old with advanced jet trainers.
    Given your experience, probably both of you, of flying the 
T-37, can you explain the importance to the committee of having 
a new trainer as soon as possible? What will it mean to us?
    General Goldfein. Yes, sir.
    The reality is that as we step into, now, the new fifth 
generation airplanes having grown up in the fourth generation 
airplanes having flown the F-16 and the F-117, the transition 
from training into an operational aircraft, you could actually 
train to a number of the skills that would be then immediately 
transferrable from a T-38 into an F-16.
    To go from a T-38 into an F-22 and an F-35, and to be able 
to understand information fusion, and how it all comes together 
because actually you could argue that the ``F'' designator for 
the F-22 and F-35 is actually old school think. It is no longer 
an F-22 and an F-35. It is an FIRB. It does command and 
control. It is a fusion machine. It has changed the way we do 
business.
    So from that perspective, you can see the leap from a 48 
year old T-38 that we are currently flying into a fifth 
generation airplane. We need to bring that new trainer on so 
that we can actually bring some of those skills that are 
required to operate fifth generation into the training 
business.
    Senator Shelby. How crucial is it?
    General Goldfein. It is absolutely crucial.
    And so for us, as you take a look at how we are bringing on 
the new T-X--which is currently in source selection as we 
speak--we are trying to bring that on as fast as we possibly 
can to be able to get that high level training.
    Senator Shelby. And what does that mean ``as fast as you 
can''? I know you have to make reliable decisions and a wise 
decision. Do you have any timeline?
    Secretary Wilson. Sir.
    Senator Shelby. Yes, Ma'am.
    Secretary Wilson. Senator, the request for proposal went 
out in December.
    Senator Shelby. Okay.
    Secretary Wilson. And the proposals are now in. We are 
evaluating those proposals.
    Senator Shelby. Okay.
    Secretary Wilson. And we expect to make a decision in the 
first quarter of fiscal year 2018.
    Senator Shelby. Regarding the F-35 basing decisions, you 
are very familiar with. Secretary Wilson, we appreciate 
recently the process selection group visited the 187th Fighter 
Wing in Montgomery, Alabama. I think they had a good site 
visit.
    Would you provide a current update of the selection 
process, where you are?
    Secretary Wilson. Senator, we have what is called a 
strategic basing process. We set criteria and we go out and 
narrow that down every time we do a basing decision.
    I actually intentionally do not touch that process at all 
until they are ready to make a presentation to me and the Chief 
on their evaluation of the bases and the options. I do that 
intentionally.
    I think that it is important for the decision to be made 
based on the criteria that we briefed to you all, and to be 
very transparent, and analytical about it. And then make that 
decision based on the needs of the service and the country with 
no thumbs on the scale.
    So I actually do not even look until they are ready to 
brief.
    Senator Shelby. Space launch reliability, both of you are 
very familiar with all of this.
    I believe that maintaining our access to space while 
quickly and safely reducing our reliance on Russian-made rocket 
engines has been a priority of this committee working with the 
Air Force.
    I know the Air Force shares that goal. I believe we should 
avoid and not repeat the mistakes of the late 1980's and 1990's 
when multiple launch failures cost the U.S. taxpayer over $3 
billion, as well as the benefits of three national security 
satellites including a critical communications satellite that 
was not replaced for 11 years.
    Secretary Wilson, as you looked at the ways that our space 
infrastructure enhances our war fighting capabilities, can you 
describe the importance of launch schedule reliability?
    Secretary Wilson. Senator, in the 1990's, we had a terrible 
situation where we were basically losing our access to space 
because a commercial provider and the commercial system just 
were not there.
    We now have the Falcon 9, which is the SpaceX craft which 
is certified. Of course, ULA Vulcan is also certified. We are 
in the process of certifying the Falcon Heavy. We have Orbital 
ATK with its next generation rocket. So competition has helped 
to reduce the cost.
    In this budget, there are three additional launches that we 
fund, and we have had competition for the last two GPS 
satellite launches, and there is one more award that we expect 
to make here this summer.
    So we are in a much better place than we were in the 
1990's. I think all of us are cautious about it. There is a lot 
of innovation going on out there in the private sector. It is 
very interesting to us, but we are also cautious that we need 
to keep this for the long term.
    Senator Shelby. This committee has provided accelerated 
funding, millions for several years, to assist the Air Force in 
developing an engine to replace the Russian-made RD-180.
    Where are we there? I know you cannot push developments too 
fast sometimes, but are we making progress, General? Do you 
want to?
    General Goldfein. Yes, sir.
    So the direction we received from Congress was actually to 
do three things through a transition period.
    First was to ensure that we maintained assured access to 
space for all of our payloads and all of the orbits that we 
need to service.
    The second directive was that we were told to emerge at the 
end of a transition period with at least two domestic launch 
service providers.
    And the third directive that we heard loud and clear was as 
soon as possible get off the RD-180 engine.
    So we are in that transition period now and on track to be 
able to achieve what Congress told us to do in 2022. So we are 
actually not in the business of building a rocket engine to 
replace the RD-180. What we are in the business of doing is to 
work to procure launch services.
    And so right now, we are actually seeing quite a few 
successes based on the competitive market between the United 
Launch Alliance, which as the Secretary said, was stood up 
based on coming out of the 1990's and a pretty tragic period in 
the space business.
    Senator Shelby. Are you talking about another 2 years, or 3 
years, or what?
    General Goldfein. Yes, sir. About another 2 to 3 years.
    Senator Shelby. You think you will get there, do you not?
    General Goldfein. Right, now, we are on track to get there.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. The time of the 
Senator has expired.
    May I recognize the distinguished senator from Kansas? Mr. 
Moran.

                                 KC-46A

    Senator Moran. Chairman, thank you very much.
    Secretary Wilson, welcome to your debut appearance before 
our subcommittee. Senator Blunt and I were thinking back to 
you, and I, and he being classmates. And we reached a quick 
conclusion that you are smarter than either one of us, and a 
star in our class, and have led a great life in public service. 
We are honored to have you here in front of our committee and 
to be the Secretary of the Air Force.
    Let me direct your attention, Madam Secretary, to the KC-
46A. Leadership at McConnell tells me that they will be ready 
for the arrival of the tanker later this year. They are nearing 
completion, if not already complete, of the MILCON investment 
that was made to prepare for the arrival of the tankers. An 
investment totaling $277.5 million since the decision was made.
    Unfortunately, there have been notable delays in the 
development of the KC-46A, but I understand we are getting 
closer to determining a final delivery date.
    I wondered if you could tell me what that is?
    Secretary Wilson. Thank you, Senator.
    We just did a schedule review with the contractor. They 
still believe that they are going to be able to deliver the 
airplane in December, which is a couple of months later than 
when we base-lined this program, but they still think they can 
do it in December.
    The Air Force thinks that is pretty ambitious and it is all 
about the test schedule for FAA certification. That does not 
always go quite as quickly as, perhaps, they have on their 
schedule. But the good news is that it is about the test 
schedule. It is not about production.
    So once the airplane is certified as safe by the FAA, it is 
not as though there is a huge projection or technology problem. 
It is really about tests and satisfying the FAA airworthiness 
certification.
    We think that it may be into the spring or early next year, 
and it all depends on the FAA's certification testing timeline.
    We probably will know late this summer whether they are on 
track with testing or not, and whether they are meeting the 
timelines that they have in their own schedule.

                LEVERAGING EXISTING ASSETS: CYBER TEAMS

    Senator Moran. Thank you very much. I reiterate my 
invitation for you to join us in Wichita when that arrival 
occurs.
    Let me also highlight at McConnell, to you, General 
Goldfein the 184th Intelligence Wing. You talk a lot about 
cyber and I think, very appropriately, it is a huge priority.
    We have an asset, the Kansas National Guard 184th 
Intelligence Wing. It is part of the Wing that is the 177th 
Aggressor Squadron. It is a Red Teaming threat simulation and 
it is the only NSA certified Red Team in the Reserve component.
    My question, we have had this conversation before as well, 
but I would ask you, as you develop the 39 cyber teams, how 
does the Air Force intend to leverage the existing assets? Are 
you considering co-locating active and reserve components?
    General Goldfein. Yes, sir. And we actually already are. If 
you take a look at the make up of the cyber mission teams as we 
grow to the 39 teams, several of those teams are actually Guard 
and Reserve.
    What is interesting and I learned this when I was an Air 
Component Commander Forward, that some of the best intelligence 
analysis that I got as a Commander Forward actually came from 
my Air National Guard units.
    Because what I found was that they were not moving from 
location to location which is typical for an active duty. They 
were in the same location and they were able to focus on the 
same area. And so the quality of the intelligence they were 
able to provide was significant.
    And so, we have leveraged that very clearly as we built up 
the cyber mission teams and the cyber protection teams, and you 
will see them scattered throughout as we go forward.
    Senator Moran. Thank you for that answer.

                              SCORPION JET

    My final question, in the time I have allotted, is you are 
both familiar with the Scorpion, the low cost, light attack 
platform that the Air Force is currently conducting an 
airworthiness assessment for, and it is also participating in 
the upcoming Light Attack Capabilities Experimentation Campaign 
that you are conducting. I was recently in the backseat of a 
Scorpion across the skies of Kansas.
    It is my hope that this Experimentation Campaign will yield 
a similar success that exercises such as Combat Dragon II for 
SOCOM, as well as CENTCOM's Proof of Concept deployment, reaped 
the benefits to the special operators and was a cost saving 
success in Iraq as well.
    The platform can offer the Air Force, as well as the rest 
of the Department of Defense, significant cost savings in 
modernizing our forces with weapon systems that give us 
critical defense superiority that we need to maintain.

                       COMBAT DRAGON II EXERCISES

    My question, General Goldfein, is you have been supportive 
of this platform in the past, seeing the benefits to the war 
fighter and to the taxpayer.
    Can you explain your observations from the Combat Dragon II 
exercises? And, what else might you need to move the Air Force 
in procuring this light attack jet?
    General Goldfein. Yes, thanks, sir.
    Actually, I was quite involved in both Combat Dragon I and 
Combat Dragon II.
    The idea behind this experiment that we are doing, actually 
is taking the authorities that we have been given, the 
acquisition authorities, and doing more experimentation, so we 
can actually speed up the way we look at potential acquisition.
    But it is important to know that this experiment is 
actually not a contest. This is an experiment where we have 
gone to industry and said, ``Show us what you have. Let us see 
what you have that is commercial, off the shelf that is shovel 
ready that we can put into the fight today. Let us take a look 
at it and see whether there is something there.''
    As important to me as the hardware that we are looking at 
is a parallel discussion that we are having about a network 
that is coalition friendly that we can use, that we can 
actually attach these various platforms to, so that we can 
actually increase the speed of operations going forward.
    So I am pretty excited about the experiment. I am going to 
go out there as well and fly in some of the aircraft. We are 
doing this, this summer in New Mexico. I am looking forward to 
seeing what industry has.
    Senator Moran. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. The time of the Senator has expired.
    The Chair is undecided about whom to recognize next. We 
have the distinguished Senator from Montana and the 
distinguished Senator from Missouri.
    Who seeks recognition?
    Senator Tester. I would, if I could. Senator Blunt, I was 
here actually before anybody else was here besides Senator 
Shelby, if I could. So thank you.
    Senator Cochran. The Senator is recognized.
    Senator Tester. I appreciate it, Chairman.
    Senator Cochran. Up to 5 minutes.
    Senator Tester. Thank you, very much and thank you, Senator 
Blunt.

                            ASSETS IN SYRIA

    First of all, it is great to have you both here. Thank you. 
Thank you for your service, it goes without saying.
    General Goldfein, we have seen what is going on in Syria 
and it does not look like things are getting better there. It 
looks like it is getting worse.
    Could you give me an idea of what kind of assets are 
deployed there and what is our current role?
    General Goldfein. We actually have six wings, 261 aircraft 
that are currently deployed and engaged in the fight, which is 
fairly significant. Just to put it in perspective, General 
Harrigian commands the twelfth largest Air Force in the world.
    Senator Tester. Yes.
    General Goldfein. Going forward and we are doing everything 
from command and control, to personnel recovery, to help the 
tankers that are going on. About 115 missions a day that we are 
dropping ordinance on the enemy.

                           SITUATION IN SYRIA

    Senator Tester. And so yesterday, a Navy pilot shot down a 
Syrian fighter and yesterday the Russian Government responded 
by saying that the U.S. and coalition jets in Syrian airspace 
would be presumed as targets.
    This is for either one of you. What is being done to 
deescalate the situation?
    General Goldfein. Right now, this is obviously being 
handled in diplomatic lanes, so a couple of levels.
    First of all, I know Secretary Tillerson is heavily engaged 
in working this diplomatically with the Russians.
    Senator Tester. Okay.
    General Goldfein. General Dunford has an open line that he 
continually talks to his counterpart, General Gerasimov, and 
they talk routinely.
    Then at the CAOC (Combined Air and Space Operations 
Center), at the operations center where Lieutenant General 
Harrigian is, there is actually a line that we have with the 
Russians that is a de-confliction line, and that line remains 
open, and we remain in conversation with them.
    So our hope, of course, is that we return to a little bit 
better sense of normalcy and we continue to keep the dialogue 
open.
    Senator Tester. Well, thank you for that. One of the things 
that truly does scare me about what goes on in this world right 
now is that Putin is a bad guy. And I am being generous with 
that statement.
    What has transpired with the actions with NATO (North 
Atlantic Treaty Organization) and other of our allies is, I 
think we have, our President has at least empowered him. I 
think that is very, very dangerous and I think we are seeing 
the fruits of that right now. It is up to you guys to try to 
fix it. And so, I appreciate your work.

                            AUDIT READINESS

    The Air Force is audit-ready today. Is it or is it close? 
Where are we at?
    Secretary Wilson. Senator, about 50 percent of our 
squadrons are ready for all of the missions assigned to them.
    Senator Tester. Okay. The DOD's top financial advisor said 
that the entire Defense Department would be ready for an audit 
in September and the Air Force is close to that?
    Secretary Wilson. Senator, we are ready to move from 
preseason to the real season.
    But I think the other thing is that our first time through 
this and our second and third. Most of you who have ever dealt 
with audits know that we are going to have audit findings.
    Senator Tester. That is right.
    Secretary Wilson. That is the point is that you have the 
audit findings and then you continually get better and address 
those things.
    Senator Tester. I just want to say this. Thank you.
    The fact that the Defense Department has not been audited 
in God knows how long, and the fact that you have not been 
audited, and the fact that you are in a position now to get 
audited. Thank you.
    Whoever is responsible for that needs big kudos because we 
cannot do oversight if we do not have audits, quite frankly and 
so, thanks.

                            HUEY REPLACEMENT

    I want to talk a little bit about the Huey replacement as 
it applies to Malmstrom Air Force Base. We talked about this 
when you were in my office, Madam Secretary. Is it going to 
happen by 2020?
    Secretary Wilson. Senator, this budget has about $108 
million for the beginning of the competition for replacing the 
UH-1N Huey. We expect it to be fielded in 2020-2021.
    Senator Tester. Is there anything we can do to expedite it 
to 2019? This is kind of like a negotiation. Okay?
    Secretary Wilson. Senator, here is the reality.
    Senator Tester. Yes.
    Secretary Wilson. The Air Force went out to look at whether 
we could buy a helicopter off of any of the lines that are 
currently producing helicopters for other things.
    Every single one of the manufacturers said, ``Look. To meet 
all your requirements, we would have to do a modification.''
    Senator Tester. Right.
    Secretary Wilson. All of the modifications were slightly 
different for each company.
    Senator Tester. Okay.
    Secretary Wilson. So we really did have to step back and do 
a competitive request for proposal.
    Senator Tester. Okay.
    Secretary Wilson. And we are in the midst of that now.
    Senator Tester. Right now, the Montana National Guard has 
C-130 mission. They do their training in Washington State. We 
have the best airspace in the country--some would argue with me 
on that--right east of Great Falls, Montana Malmstrom Air Force 
Base.
    Is there any possibility of moving that training mission, 
not only for the Montana Air Guard, but for everybody to that 
incredible airspace that we have?
    General Goldfein. Sir, we will definitely take a look at 
it. I will tell you, when it comes to restoring the runway at 
Malmstrom.
    Senator Tester. Yes.
    General Goldfein. It is something that we will actually 
take a look at here. Here is the challenge we face on that.
    Senator Tester. Yes.
    General Goldfein. Just so I am very clear and that is we, 
in this budget based on all the priorities that we have had to 
try to meet, we were able to get to about a 90-year recap rate 
on facilities that we built for about 50 years.
    Senator Tester. Yes, I got you.
    General Goldfein. So our challenge is we look at the 
infrastructure and where we put infrastructure investment.
    Senator Tester. Yes.
    General Goldfein. I cannot look you in the eye and tell you 
that Malmstrom restoring that runway is going to make the cut, 
but we will definitely look at it.
    Senator Tester. I would not want you to, but thank you very 
much.
    General Goldfein. Sir, can I?
    Senator Cochran. The time of the Senator has expired.
    The Senator from Missouri is recognized.
    Senator Blunt. Thank you, Chairman.
    I was just about to say the advantage of going last is you 
have whatever time the chairman will give you, but I hate it 
that that last question did not get answered.
    Maybe we can figure out how to get that in my questions, 
but certainly it can be submitted for the record and we will 
all look at that.

                           SITUATION IN QATAR

    I have three questions I am going to try to get to pretty 
quickly.
    And again, Secretary Wilson, I will join Senator Moran in 
saying how glad we are to see you here and of course, glad also 
to see the General here.
    For either one of you that wants to deal with this. I am 
sure you have been following this situation in Qatar.
    Four of our regional allies, our partners in the region, 
have changed their relationship over concerns about a number of 
issues including Qatar's relations with Iran, support of the 
Muslim Brotherhood, and financing extremists, and their stated 
reasons to do what they have done. Clearly the airbase is very 
important to us and very important in the current fight against 
ISIS.
    Do you have concerns about our ability to continue to use 
that airbase to maintain that base to do whatever we need to do 
to continue to have access there?
    Secretary, I want you to start.
    Secretary Wilson. Senator, the airbase, Al Udeid Air Base 
is fully operational and operations continue out of it as 
normal.
    The resolution in the Gulf Cooperation Council, that effort 
is being, of course, led by the Secretary of State as a 
diplomatic effort.
    Senator Blunt. General.
    General Goldfein. Yes, sir.
    I actually lived at Al Udeid Air Base from 2011 to 2013 as 
the Commander there.
    Senator Blunt. Yes.
    General Goldfein. So I know the region quite well.
    To say it does not concern us, we are concerned and we are 
staying closely plugged in.
    I will tell you that I talk to the Commander there 
routinely, and so far there has been no impact on our 
operations on the base or for our families who live off base. 
Secretary Tillerson, I know, is working this extremely hard and 
the Secretary of Defense is working this as well.
    So we have not seen any impact on our operations and right 
now we are not projecting any.
    Senator Blunt. Well, thank you for that.

                           PROPERTY TRANSFER

    Senator Cochran heard me ask this same question to 
Secretary Mattis the other day. We are trying to transfer some 
property, the NGA (National Geospatial-Intelligence Agency) 
transfer in the city of St. Louis.
    I am sympathetic with the fact that up until the actual 
time of transfer, everybody thought that transfer was going to 
be with either the Corps or the Army. And then suddenly it was 
determined, for reasons we accepted at the time, that the Air 
Force was the best future owner of that property for National 
Geospatial West.
    I think we have missed two deadlines on this already. It 
was supposed to be done in April and then it was supposed to be 
done in May. I am hoping we are not going to miss a third 
deadline.
    I am told that the Air Force has attorneys working round 
the clock on this. I am doubtful that that is the case, but 
however many attorneys need to work on this to get it done.
    Can we get that done this month?
    Secretary Wilson. Senator, I pulsed the system to get some 
facts for you on this one.
    The Air Force has sent back to the City and to the holding 
company that is involved in the environmental cleanup of the 
site of a signature ready agreement. It usually does take about 
9 to 12 months to do a property transfer like this particularly 
when there is some environmental remediation that has to be 
done before the actual transfer. So there are actually two 
steps to this transfer.
    I think the final issues are apparently the indemnification 
for contamination. And in the agreement that we signed in 
January, the Air Force signed with the City, it was 
indemnification for any contamination that was there before we 
take over the site.
    That has apparently become something of an issue. I think 
we may need to figure out a way to resolve that and give some 
kind of a term in place there because it now appears to be a 
different situation from the City's point of view.
    This is a site that, as you know, is a brownfield site. It 
used to have a battery manufacturer there, and a junkyard, and 
a drycleaner, and those kinds of things. And the Air Force has 
to operate under Federal rules for environmental protection. So 
we just want to make sure that we get that clarified upfront.
    Senator Blunt. Well, I think that the reason this normally 
can be done in 6 to 12 months is we had a year to talk to the 
Government about this, and the standard was clearly understood 
until the owner was determined to be a different owner.
    I think this is a problem that you can work out. This is a 
substantial project. If we lose a year on it because we cannot 
get this one thing worked out in the last 90 days, I would be 
very disappointed.
    Secretary Wilson. Senator, I am aware of the issue, and I 
want to get it done, and get moving on it. It is an important 
capability for the country.
    When the Army said they did not want to do it, the Air 
Force did step in, in December and we got the letter of intent 
in January trying to work these things out with our 
installations and environment folks, and be good stewards.
    But I think we can probably work this one out and we will 
just kind of keep the attention on it.
    Senator Blunt. Well, sooner is better than later.
    Senator Cochran. The Senator's time has expired.
    Senator Blunt. Thank you, Chairman.
    Senator Cochran. The Chair recognizes the distinguished 
Senator from Montana, Mr. Daines.
    Senator Daines. Thank you, Mr. Chairman.
    Secretary Wilson, General Goldfein, thank you both for 
appearing before this committee this morning.
    The Air Force prides itself on being the world's preeminent 
force in air, space, and cyberspace. To claim such a bold title 
requires a robust capacity to deliver.
    In my home State of Montana, we are very proud to 
substantiate that claim with one-third of our Nation's ICBM's 
(intercontinental ballistic missile) operated by the men and 
women of the 341st Missile Wing.
    This critical global strike mission is supported daily by 
the professionals of the 819th RED HORSE Squadron at Malmstrom 
Air Force Base and complemented by the 120th Airlift Wing of 
the Montana National Guard.
    We are also grateful that we host most of the airspace over 
the 18 million acre Powder River Training Complex, which 
provides large scale exercise training for the B-1 Lancers of 
the 38th Bomb Wing. When I quote numbers like 18 million acres, 
everybody here will be impressed, but perhaps Senator 
Murkowski, who would say, ``Well, then there is Alaska.''
    As the son of a Marine, I value the service of every man 
and woman who serves our Nation's flag, and it is a great honor 
for me to represent them here in Congress.
    Secretary Wilson, I invite you to join me on a visit to 
Malmstrom at some point, sooner being better, to see firsthand 
truly the incredible work these men and women do to keep us 
safe.

                            UH-1 REPLACEMENT

    Secretary Wilson, as you and I have discussed, I am 
concerned by the ongoing delays to replace the Vietnam-era UH-
1N helicopters that support our ICBM security forces.
    In May, Congress appropriated $75 million to expedite a 
suitable replacement, yet under the current acquisition 
strategy, it looks like our airmen will not receive their first 
aircraft now until 2021.
    Secretary Wilson, can you assure me that this effort will 
have the utmost sense of urgency moving forward and that you 
will commit to keep me apprised of the UH-1 replacement as it 
moves forward?
    Secretary Wilson. Senator, this budget that we have 
proposed this year has about $108 million for the UH-1 
replacement.
    The initial strategy that the Air Force pursued was to try 
to go out and tag on an order to an existing line of helicopter 
production. We went in to all of the providers of helicopters 
in the United States. They each said that they did not have 
something that met all of the requirements. Each one would have 
to have some modification and every one was different as far as 
the modifications went.
    So we had to step back, and do a full and open competition, 
which we are in the midst of now. But our intention is to field 
those replacements for the UH-1 both for the fleet in 
supporting the nuclear mission, but also the UH-1's Air Force 
wide and to do that by 2020 and 2021.
    Senator Daines. Thank you for the update. We will stay in 
contact. Appreciate it.
    In addition to the UH-1, the modernization of our aging 
Minuteman III missile, which has been in service for almost 50 
years, and the supporting infrastructure has to be a top 
priority.
    I am pleased the President's budget makes important 
investments in these areas. In fact, some military construction 
efforts at Malmstrom in Great Falls are literally underway as 
we speak.

                    GROUND-BASED STRATEGIC DETERRENT

    My question, Secretary Wilson, will you commit to keep me 
apprised of the developments of the Ground-Based Strategic 
Deterrent?

    Secretary Wilson. Senator, we certainly will, and we are 
committed to upgrading and modernizing the ground-based nuclear 
deterrents, and I might ask the Chief to comment on this one as 
well.
    General Goldfein. Yes, sir.
    The reality is that we built this system in the 1960's. We 
upgraded it one time in the 1980's. This is the first time now 
we are going back.
    When you think about it, it is more than just the missile; 
it is the entire system. It is the launch control facilities. 
It is the command and control that goes into it.
    As I said in my opening statement, on our worst day as a 
Nation, we have got to ensure that the Commander-in-Chief is 
where he needs to be and he is connected to a ready force.
    It is important just for perspective to take a look at 
this. Most people do not know what this is. This is an 8\1/2\ 
inch floppy disk and this is being used today to do nuclear 
command and control.
    So, it is absolutely time to upgrade and we appreciate your 
support to do so.
    Senator Daines. Yes, thank you.
    Sometimes it is really helpful to get out and get up close 
to the current infrastructure and the needs for modernization. 
I spent time there certainly in Montana with the airman. It is 
so old that the cyber risk is not quite as great because it is 
not connected.
    You drive by Alpha-06 there, the ace-in-the-hole as they 
called it, that President Kennedy used in the Cuban Missile 
Crisis. You drive right by there when you leave Great Falls, 
Montana heading out towards where a lot of our silos are. Just 
a reminder of how old all this is. It was Kennedy-Khrushchev 
days when we were standing up our first missiles out there in 
Montana.
    Well, I am out of time. Thank you. We will submit some more 
questions for the record.
    But thank you again for your service and your very 
thoughtful and bold leadership in these troubled times in the 
world.
    Thank you.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from Alaska is recognized.
    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you both for your leadership.
    I would also like to give a little shout out. Sitting 
behind General Goldfein is Major General James Martin. At one 
time, General Martin was known as Colonel Martin. He was 
Commander of the 354th Mission Support Group at Eielson. I 
understand retirement is in the works, but thank you for your 
service as well.
    It is just a reminder that the path to Air Force greatness 
often runs straight through Alaska and we appreciate that.

                        EIELSON BEDDOWN OF F-35A

    General Goldfein, I would like to ask a question about the 
Eielson beddown of the two squadrons of F-35A aircraft that are 
anticipated in the 2021 timeframe. I am frequently asked 
whether or not the funds that we are appropriating in a 
particular year are going to fund the F-35's that are headed to 
Eielson.
    Can you give me any insight into how the dollars we 
appropriate for the F-35 in the 2017 dollars and the 2018 
dollars, will we see those going towards Eielson? And can you 
comment on whether or not the purchase of any additional F-35's 
as proposed in the unfunded priority list, whether perhaps they 
also will benefit the Eielson beddown?
    General Goldfein. Yes, Ma'am.
    When you take a look at our MILCON, we actually set up in 
three priorities. First priority, we funded is combatant 
commander requirements, and for those combatant commanders who 
were the executive agent, we had to get to their requirements.
    Second priority for us was new mission beddown. So for F-
35, KC-46 we put that money in the program to move forward.
    Our third priority was getting at our worst particular 
facilities going forward.
    Just to give you a sense at Eielson, we have a weapons 
intel facility that is funded, a fuel truck shelter, a 
satellite dining facility that is all coming in, a conventional 
munitions facility. All those are on track.
    Senator Murkowski. Good.
    General Goldfein. And so right now, we are on glide path to 
be able to meet that 2020 beddown for bringing the F-35's back.
    If we were able to get more F-35's in the unfunded list as 
required, we would look at where we would spread those relative 
to getting the greatest combat capability, the fastest for the 
force.

                           HOUSING AT EIELSON

    Senator Murkowski. Got it. Well, I appreciate that.
    There are oftentimes little rumors out there, little 
rumbles that things might be slowed down. And of course, this 
causes concerns from a lot of different levels.
    I met yesterday with several Alaskan leaders that are 
focused on how we will meet the needs for housing with the 
additional activity there at Eielson. The concern that when you 
are looking for some 850 new housing units to house more than 
the 3,000 service members and their dependents that we are 
expected to see.
    The community wants to get moving. They need to formulate a 
strategy for getting those units constructed. That, of course, 
requires investment.
    One concern that has been expressed to me is that private 
investors will be reluctant to build if they think that they 
may face future competition from the construction of additional 
privatized housing there on Eielson.
    So again, we had a pretty lengthy meeting yesterday. Their 
very specific ask was an opportunity for the local officials to 
sit down with the Air Force folks, the housing privatization 
folks, to determine whether or not there can be commitments 
made to the private investor side.
    Secretary Wilson. Senator, I am very happy to sit down with 
the local community.
    General Martin and I were talking in the car on the way 
over here. One of the wonderful things about our bases that are 
in communities that are smaller is the tremendous support that 
we get from the community and the partnership that exists 
there. It is true at Eielson. It is true at a lot of our other 
bases that are in rural America.
    It really is a partnership and I am very happy to sit down.
    Senator Murkowski. Well, I would appreciate that. I know 
that they would. We would certainly welcome you to Alaska. Love 
to host you there in the near future.
    As Senator Daines mentioned, we have some pretty awesome 
training area to show off. I think you know that, but seeing it 
for yourself firsthand is greatly appreciated.
    Again, thank you both for your leadership and we look 
forward to working with you.
    Thank you, Mr. Chairman.
    Chairman Cochran. Thank you very much.
    I understand that a Senator is on his way to the hearing 
room. Awaiting his arrival, let me ask this question of 
Secretary Wilson and General Goldfein.

                           LEVEL OF MUNITIONS

    The Air Force continues to expend large amounts of 
munitions in training and operations all over the world. Does 
this budget request adequately replenish your inventory levels?
    General Goldfein. Yes, you captured it exactly right. We 
are dropping an incredible number of munitions; over 80,000 
munitions just since 2014 just to put it in perspective.
    We are working with industry and what you will see in this 
budget is we have actually funded to the maximum capacity that 
industry can produce in our preferred munitions that we are 
using today in the fight and to keep those stockpiles at the 
right level. We move munitions from other areas to ensure that 
we can continue the fight at the pace that we require.
    There is an aggressive approach that we have right now with 
industry to see what they can increase in terms of their 
capacity because right now, we are not replenishing at the rate 
that we are actually dropping munitions.
    So we are continuing to manage it. We are able to keep the 
pace on the enemy where we need to, but this is something that 
this budget starts to get at. And then we are continuing to 
work on it for the future.
    Secretary Wilson. Senator, the only thing I would add is 
that it is something that we are working very closely with our 
industry partners on. It is one of the reasons why sequester, 
continuing resolutions, and just getting to budget stability 
matters.
    If you are a munitions manufacturer, what really matters is 
that stable production, just steady production over time, and 
the surges and gaps are a real problem.
    And so it is one of the things that can help us 
tremendously is not only moving beyond the Budget Control Act, 
but getting some predictability and stability.
    Senator Cochran. The Senator from New Mexico, Mr. Udall.

                      TRAINING MISSION AT HOLLOMAN

    Senator Udall. Thank you very much, Chairman Cochran. 
Really appreciate being here with you today.
    Always it is great to see Secretary Wilson. I believe this 
is the first time she is before our committee. And so, welcome 
and also to your Chief of Staff, General Goldfein.
    Secretary Wilson, we are experiencing a major pilot 
shortfall in the Air Force. Not only do we need more pilots in 
the training pipeline, but we also need to do a better job 
retaining the pilots that we have.
    Given the struggle to train and retain pilots, do you agree 
that the additional F-16's for the growing training mission at 
Holloman can be a key part of the solution to this issue?
    Secretary Wilson. Senator, the increase in training at 
Holloman, at this point, is temporary. We would do a strategic 
basing review for any permanent placement of a training unit.
    But we expect those aircraft, the F-16s, to be at Holloman 
in late summer of this year.
    Chief, do you want to add anything to that?
    General Goldfein. Well, sir, I just want to say, having 
been the Wing Commander at Holloman and knowing not only the 
great support of the community there, but also the incredible 
airspace that we enjoy there. Holloman was an obvious choice to 
be able to get at increasing production as fast as we possibly 
could.
    It not only had the capacity, but the three runways there, 
the range space, all the things that we had available allowed 
us to move very quickly.
    But as the Secretary said, this is the interim solution and 
then we will go through a new process with the Secretary on a 
final solution. But it is very helpful and we appreciate the 
support Holloman gives us every day.
    Senator Udall. Well, thank you very much for that.
    Just a couple of final observations, as the Air Force works 
on a final basing decision, first I think that the training 
pipeline would be negatively impacted if hose F-16s were then 
to be suddenly moved again yet to another location.
    Second, I would stress the importance of de-conflicting 
airspace with Wind Sands Missile Range and working with the 
Army to ensure that the Air Force has access to this airspace 
as needed for training. Good progress has really been made and 
I hope the Air Force and Army continue to make this a priority.

                    IMPORTANCE OF R&D AND PRODUCTION

    In an interview with ``Defense News,'' you stated that 
research and development would be a priority when you took the 
reigns at the Air Force and that you are no stranger to the 
importance of the Air Force research labs.
    In your opinion, how important is it that we find ways to 
rapidly move technology from R and D to production, but while 
also improving tech transfer opportunities in the private 
sector? What ways does your proposed budget support R and D 
efforts? And how can the committee work to increase tech 
transfer opportunities with the Air Force?
    Secretary Wilson. Senator, this budget does increase 
research and development, but I would have to say that it is 
more on the development end. So it is testing actual systems.
    I think long term, we need to look at the early stage 
research for path breaking technologies. That is not only at 
our laboratories, but at other national laboratories, and also 
at universities, and in industry.
    Some of the path breaking innovations that we are 
benefitting from today were not developed by Air Force research 
laboratories. In fact, stealth, I think, came to us initially 
from industry.
    So there are a lot of different ways that innovation can 
spin on to the Air Force in addition to spinning out from the 
Air Force.
    I think that takes a real commitment to partnerships and 
real effort to identify the most important research vectors. 
Over the next year, I think we are going to be digging into 
that in a serious way.
    Senator Udall. Great.
    The Air Force Research Lab at Kirtland Air Force Base also 
plays an important role monitoring our Nation's space assets, a 
domain that is increasingly competitive and is definitely 
contested.
    But do you agree that funding assets such as the Starfire 
Optical Range at Kirtland improve our ability to protect our 
assets? While some information may be classified, can you tell 
the committee how our space situational awareness capabilities 
compare to that of our near-peer competitors Russia and China?
    I recently saw an article my staff gave me that you wrote 
on Air Force in space.
    Secretary Wilson. Sir, the Starfire Optical Range does 
provide capability as part of a whole system of space 
situational awareness. One of the things that is really 
changing is----
    The Air Force has always been the service that has kept a 
catalog for the world for commercial providers of satellite 
services as well as all of the military services of what is up 
there and what orbit it is on.
    But it is no longer good enough to just keep a catalog. We 
need near real time situational awareness of where things are, 
and where they are moving to, and very clear characterization 
of what the capabilities are. While we have good situational 
awareness, this budget advances that even further.
    I would also say, though, that we expect space to be a 
contested domain. Our adversaries are moving forward very 
quickly and they see that we are vulnerable in space. We need 
to anticipate that any future conflict will involve conflict in 
space.
    Chief, is there anything you want to add to that?
    General Goldfein. No, just to offer to you that I would 
love the opportunity in a closed session, or perhaps in a 
classified session, to brief you, or any of the members of this 
committee, on what our adversaries are doing to invest in 
taking away our advantages. And it is eye opening.
    Senator Udall [presiding]. Well that, I think, would be a 
very, very helpful briefing. I will talk to the chairman and 
the ranking member and see if we cannot do that. We really 
appreciate that offer.

                    AIRCRAFT FOR AIR NATIONAL GUARD

    Just one final question, General Goldfein. I know you agree 
that the Guard plays a vital role in defending the homeland. 
One of their capstone principles is every State has a unit 
equipped flying mission.
    However, the New Mexico Air Guard currently does not own 
aircraft. General Lengyel, Chief of the National Guard Bureau, 
responded that the plan to ensure that New Mexico will be unit 
equipped with a suitable and viable mission is not currently 
budgeted.
    I think there are two options to consider to solve this 
problem and avoid the budget issues.
    First, the 150th Special Operations Wing has been a major 
contributor to the CV-22 mission at Kirtland. Assigning the CV-
22 mission to the ANG (Air National Guard) would be a no-cost 
option to meeting the capstone principle while also providing 
stability and long term experience.
    There is another opportunity at Holloman Air Force Base 
establishing an active association with the F-16 FTU allows the 
Air Guard to own the aircraft while also growing the training 
pipeline in helping to solve the major pilot shortfall the Air 
Force is experiencing.
    Secretary Wilson and General Goldfein, will the Air Force 
look at the viability of allowing the 150th to take on one of 
these missions and provide me with the details when you have 
completed your assessment?
    General Goldfein. Sir, we will absolutely take a look at 
that and get back to you.
    If I could, just return to an important point that the 
Secretary made and has been a central theme throughout, which 
is the fact that this Air Force is just far too small for what 
the Nation requires across the entire active Guard and Reserve.
    And by the way, sir, I would tell you that we could not 
accomplish the missions that we are accomplishing today without 
the Air National Guard. I mean, you walk into a C-17 and you 
walk into the cockpit and ask, ``Who is active? Who is Guard 
and Reserve?'' And very often all three hands go up. We are 
that integrated.
    So if you take a look at the size of the Air Force today 
based on the missions that we are responsible for, we have got 
to grow.
    Then just to put a fine point on a comment that Chairman 
Dunford made to this committee under his testimony that I 
absolutely support as a Joint Chief.
    We enjoy a competitive advantage today against our 
adversaries. But on our current path, as he stated, in 5 years 
we will not have that competitive advantage that we enjoy 
today.
    So getting beyond sequester and getting back into stable 
budgets are absolutely essential for this Air Force if we are 
going to do the missions that we are required to perform to the 
level that the Nation expects.
    Senator Udall. Madam Secretary, anything additional on 
that?
    Secretary Wilson. Senator, the only thing I would add would 
be something about what we call concurrent fielding. The Air 
Force always, the Guard has been one of the strongest elements 
of the Air Force, and the Reserve as well because they are so 
much more experienced.
    As you well know, I have kind of a close affiliation and 
affection for the TACO's. We would all like to see them have a 
flying mission again. The reality is the budget that we have 
and the size of the force we have does not support it and we 
need to fix it.
    Senator Udall. Yes, and thank you both for your comments, 
and we really look forward to working with you. We appreciate 
your testimony today.
    Are there any further questions from the panel?
    I guess there are not.
    If there are no further questions, we would thank our 
witnesses for their testimony and continued assistance. We are 
grateful for your service and look forward to continuing a 
dialogue throughout the fiscal year 2018 appropriations 
process.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senators may submit additional questions and we will 
request you to respond to them within a reasonable time. We 
have your agreement on that, I hope.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Dr. Heather Wilson
             Question Submitted by Senator Susan M. Collins
    Question. How quickly could the Air Force ramp up production to 60 
F-35A's per year, and eventually greater numbers of aircraft per year, 
to recapitalize its aging fighter fleet and field the number of F-35's 
needed to address current and future threats?
    Answer. If the Air Force receives additional funding for 14 F-35As 
as requested in our unfunded priorities list, the Air Force would ramp 
up production to 60 F-35As per year beginning in fiscal year 2018.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
    Question. Secretary Wilson and General Goldfein, you are well 
versed in the ongoing discussions regarding the future of the A-10 and 
General Goldfein, we have previously discussed this issue a few times. 
I am proud to represent the men and women of the 442nd Fighter Wing at 
Whiteman Air Force Base, Missouri. It is a positive step to see that 
the Air Force's budget request keeps the A-10 flying for the next 5 
years. However, I am worried that without a sustained commitment to 
maintenance issues, the Air Force will begin to retire A-10s long 
before we have enough aircraft to meet the bare minimum of fighter 
squadrons in the force. Specifically, I am worried about a lack of 
commitment to ensure the A-10 has new wings. I have read that the Air 
Force has current funding plans to replace the wings of 173 of the 283 
A-10s, which means that 110 A-10s will still need new wings. As you 
know, the Air Force's fiscal year 2018 unfunded list requests a little 
over $100 million for rewinging efforts. I believe that previous 
efforts to buy new wings for A-10s have cost roughly $5 million. Thus, 
I was surprised to see that the Air Force says that the $100 million 
request will only fund new wings for 4 A-10s. Can you explain the 
difference? Can you please describe the Air Force's plans to rewing the 
A-10?
    Answer. The amount of the current fiscal year 2018 President's 
Budget request for A-10 Wings is comparable to the first article and 
low rate initial production expenditures for the original A-10 Wing 
Replacement Program. The cost of pre-production articles is significant 
due to the complexity of the A-10 wing design, the considerable 
manufacturing infrastructure required, along with a large supplier base 
and extended lead times (3+ years from contract award to First Article 
delivery). As full rate production accelerates, the high cost of pre-
production articles is shared across increasing numbers of wings 
driving the average cost down significantly. If appropriated, we plan 
to use the $103 million requested in the fiscal year 2018 Unfunded 
Priorities List to initiate a new wing acquisition program. The new 
program will secure the ability to procure additional A-10 wings in the 
future. After the UPL funding is received, it would take approximately 
1 year to competitively award the new contract, with delivery of the 
first wing as early as fiscal year 2022. This preserves the ability to 
re-wing aircraft should the decision be made to retain the A-10 beyond 
the future years defense program, which will be informed by the fiscal 
year 2017 National Defense Authorization Act required comparison 
testing between the A-10 and F-35 in fiscal year 2021.
    Question. Secretary Wilson, Portable Doppler Radar Systems allow 
Air Force weather operators to better forecast severe local storms and 
mission-limiting wind conditions for forward deployed operations and 
training. This is a very powerful and efficient system, but I have 
concerns that with so many ongoing sustained, forward operations over 
the last several years that many of these systems may need to be 
recapitalized or additional systems deployed to keep up with tempo and 
demand. The fiscal year 2018 budget request under Other Procurement Air 
Force, Line 20, Weather Observation Forecast is for $40,116,000. Of 
these funds, are any planned for procuring additional Portable Doppler 
Radar Systems necessary for forward operations and training? What is 
the current requirement for Portable Doppler Radar Systems?
    Answer. The Air Force plan is to procure 11 additional Portable 
Doppler Radar Systems in fiscal year 2018, at a cost of $8.25 million. 
The current requirement for operational Portable Doppler Radar systems 
is 41. Twenty systems are currently in service with 11 more 
requirements being fulfilled with the fiscal year 2018 purchase leaving 
an outstanding requirement for 10 additional systems.
                                 ______
                                 
               Question Submitted by Senator Patty Murray
    Question. Secretary Wilson, Washington is very proud that our Air 
Force installations and our communities are able to successfully work 
through issues as they arise. Recently the community of Airway Heights 
was made aware of ground water contamination associated with 
firefighting foam used at Fairchild Air Force Base. Of note, leadership 
at Fairchild Air Force Base has been communicating in an outstanding 
manner with both Airway Heights and Medical Lake, which has been 
helpful to local authorities and communities. Airway Heights and other 
communities in Washington State, as well as communities around the 
country, will be dealing with this groundwater contamination for years 
to come and I am worried there are not enough resources allocated to 
this problem. Does the Department of the Air Force have the resources 
to take care of every affected community and clean up all 
contamination?
    Answer. Yes for those areas we remain responsible for as we work 
with other agencies to respond (e.g. EPA, Center for Disease Control, 
etc.). Up to this point, the Air Force has been making trade-offs and 
reprioritizing within existing funds to address our PFOS/PFOA issues. 
Starting in fiscal year 2019, we will request funding specifically for 
these requirements in the base budget. Once exposure is mitigated, we 
will address sources of contamination under the Comprehensive 
Environmental Response, Compensation, and Liability Act process and 
prioritize our actions based on risk.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. Please provide an update on the ongoing analysis to 
determine training requirements for special operations pilots at Cannon 
Air Force Base. When will the Air Force release its proposal for 
military training routes to the public?
    Answer. The 2012 New Mexico Land Grant allowed Cannon Air Force 
Base to reorganize the Melrose Range structure to enable additional 
special operations training opportunities within the existing range. 
This range reorganization, combined with existing military training 
routes, existing military operations areas, joint training events at 
other locations, and random visual flight rule operations, provides the 
27 Special Operations Wing (SOW) the necessary range and airspace 
requirements with a few exceptions. Consequently, the necessary 
Restricted Airspace needed to facilitate 27 SOW advanced weapons 
employment and tactics at Melrose Range will be analyzed in Phase 2 of 
the Regional Special Use Airspace Optimization Project (RSOP) beginning 
in 2018. RSOP Phase 2 will analyze airspace throughout New Mexico and 
parts of Arizona in an effort to optimize Special Use Airspace and 
Military Training Routes for all units and missions in the region.
    Question. The Air Force has committed to complete the remediation 
of the Kirtland Air Force fuel spill. Will you also commit to carrying 
out this vital work for the community? Is the project still on 
schedule, and what is the estimated date for completing cleanup?
    Answer. The Air Force is committed to remediating the Kirtland Air 
Force Base (AFB) Bulk Fuels Facility site until cleanup is complete 
under Kirtland AFB's Resource Conservation and Recovery Act (RCRA) 
Permit. The project is still on schedule and we continue to program 
funding for cleanup and support community outreach efforts. As part of 
the cleanup process, the Air Force installed an interim groundwater 
measure that is capturing and removing contamination as planned. Three 
treatment pilots will begin later this year in the area where the fuel 
leak occurred to determine the best path forward to clean up the source 
area. Because the project is still in the interim measure phase, it is 
not possible to give a firm date on when cleanup will be completed. A 
schedule will be developed once the State has approved final remedies 
for the groundwater plume and the source area. We will continue to work 
with all stakeholders to determine and implement the final remedial 
action in accordance with RCRA.
    Question. I included report language in the fiscal year 2016 and 
2017 Defense Appropriations Bills to promote the development of a cyber 
kinetic training capability. The fiscal year 2017 bill lauded the Air 
Force's efforts on this front, stating that ``The Committee is 
encouraged by current progress to address training shortfalls in the 
cyber kinetic combat environment. Particularly, the Committee supports 
the Air Force's efforts to identify a training environment where they 
can replicate combat conditions and perform simultaneous operations, 
cyber-enabled kinetic operations, or physically-enabled cyber 
operations. Adversaries continue to develop asymmetric and cyber 
capabilities which put U.S. and allied forces at risk. The Committee 
encourages developing this training as a priority for the Department of 
Defense.'' What are the Air Force's current plans to continue the 
development of this capability and how much of a priority is it to 
ensure that airmen are prepared to operate in a cyber kinetic 
environment? Furthermore, please outline the threats that are driving 
the need for a cyber kinetic training capability.
    Answer. The Air Force supports operating, securing, and defending 
cyberspace as a critical warfighting domain. The Cyber National Mission 
Force plans, directs, and synchronizes full-spectrum cyberspace 
operations to deter, disrupt, and if necessary, defeat adversary cyber 
actors to defend the Nation. The US Cyber Command's Cyber Mission Force 
(CMF) is comprised of 133 total teams organized to defend against 
strategic cyberattack, support the combatant commands, and operate and 
defend DoD Information Networks (DoDIN). By the end of fiscal year 
2018, the goal is for the force to grow to nearly 6,200 and for all 133 
teams to be fully operational. The Air Force provides 39 of 133 CMF 
teams with over 2,600 personnel from the Active and Reserve components 
with an operating budget of $912.9 million in fiscal year 2018 and $4.3 
billion over the Future Years Defense Program. The increasing severity 
and sophistication of the cyber threat to U.S. interests, to include 
DoD networks, information, and systems continues as our adversaries, 
both State and non-State actors, are becoming ever more sophisticated. 
The Department of Defense has the largest network in the world and we 
must take aggressive steps to defend its networks, secure its data, and 
mitigate risks to DoD missions.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. Energy assurance at our Air Force bases in the United 
States supports the service's ability to execute operations. More often 
than not, bases across the country are tied to old and unreliable 
civilian electric grids, and when those grids go down the Air Force's 
operations are interrupted. Can you tell me how this budget moves the 
ball forward in terms of energy assurance? How are we investing in grid 
stability and assured power to protect the Air Force's warfighting 
mission?
    Answer. By policy, the Air Force considers energy security, 
efficiency and capability in requirements identification and budget 
development. We favorably consider projects improving energy 
resilience. Although the Air Force faces financial challenges in 
developing and fielding technological improvements, investments to 
enhance the efficiency and resiliency of aircraft platforms and 
critical facilities provide significant long-term benefits for the 
Nation, and we will continue to pursue them within budget constraints.
    Question. The Air Force's fiscal year 2018 budget requests an 
increase of $355.69 million for the Long Range Standoff Weapon. I find 
this request troubling considering the DoD is in the middle of a 
Nuclear Posture Review, an initiative meant to help us determine what 
nuclear weapons we absolutely need for a credible deterrent. Last week, 
Secretary Mattis told this subcommittee that he is still looking at the 
LRSO's deterrent value, so appropriating more money for R&D seems 
unwise given its uncertain future. Given the estimated cost of 
modernizing our nuclear weapons, do you think it is appropriate to 
prioritize the LRSO while this review is ongoing?
    Answer. Yes. Air-launched, nuclear cruise missiles have been a 
critical component of the Nation's nuclear deterrent for nearly six 
decades. The Long Range Standoff Weapon is key to the continued 
credibility and effectiveness of the Nuclear Triad. In order to meet 
validated requirements, the Air Force is proposing to continue the LRSO 
program of record as reflected in the fiscal year 2018 President's 
Budget request.
                                 ______
                                 
            Questions Submitted to General David L. Goldfein
            Questions Submitted by Senator Susan M. Collins
    Question. Based on the 14 F-35A's in the Air Force's Unfunded 
Requirements List, it appears the Air Force wants to procure 60 
aircraft in fiscal year 2018 but budgetary restrictions reduced the 
number in the request. Without the constraints of the Budget Control 
Act, is it accurate to say the Air Force would prefer to be at 60 
aircraft per year at this point?
    Answer. Yes.
    Question. The defense committees have heard a lot about the 
proliferation of advanced air defenses and other weapons that may erode 
our strategic advantage to hold any target at risk. Given the evolving 
capabilities of our near peer adversaries, when do we need to have the 
B-21 bomber fielded to meet the Air Force's requirements for both 
strategic and conventional missions?
    Answer. The B-21 is currently on track to meet initial operating 
capability in the mid-2020's to provide the ability to penetrate modern 
air defenses to accomplish national security objectives despite an 
advanced anti-access/area-denial environment.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Over the last few years the Air Force, in particular, has 
been increasingly sounding alarms of an imminent pilot shortage--to the 
extent in multiple hearings Air Force leaders have referenced the 
shortage as a ``crisis.'' In an effort to alleviate this crisis, the 
Air Force revised its aviation retention pay program. However, it 
appears the program has inadvertently created doubt as to whether the 
Air Force is acting in good faith to retain aviators given: (1) 
perceived bait-and-switch retention pay options for those who opted-in 
early in fiscal year 2016, and (2) the narrow eligibility criteria 
outlined in the fiscal year 2017 retention pay program. How many pilots 
opted-in early in fiscal year 2016? What were the written instructions 
and/or guidance published in fiscal year 2016 explaining details 
related to fiscal year 2016 early opt-in option and when were 
instructions/guidance published? How many pilots' service commitments 
expired in fiscal year 2016 and did not take a retention pay? What is 
the percentage of pilots that separate if the retention pay is not 
taken? How many pilots' service commitments expire in fiscal year 2017 
and, to date, how many have opted-in the retention program? What was 
the rationale to exclude pilots whose service commitments expired in 
fiscal year 2016 from the fiscal year 2017 retention pay program? How 
many pilots are eligible in fiscal year 2018 for a retention pay 
program?
    Answer. The Air Force did not want to create any perception of a 
``bait and switch.'' We worked hard with Congress to seek increased 
authority and develop a plan to incentivize retention based on service 
needs. ``Early enrollees'' (those who signed a contract in fiscal year 
2016) are eligible for the fiscal year 2017 aviation bonus (if their 
community offers an increased annual amount and/or contract length 
under the fiscal year 2017 program). ``Early enrollees must extend 
their contract by a year. In addition, the criteria is not different 
from previous years' programs and was designed to assuage Congress' 
concerns that the Air Force was treating the bonus as an 
``entitlement,'' while recognizing the extremely low take rate of 
personnel who have previously rejected the bonus on multiple occasions.

  --How many pilots opted-in early in fiscal year 2016?
      A: 220 of 820 (28.0 percent)

  --What were the written instructions and/or guidance published in 
        fiscal year 2016 explaining details related to fiscal year 2016 
        early opt-in option and when were instructions/guidance 
        published?
      A: Please see the attached proposal sent to Office of the 
        Secretary of Defense and then released as guidance by the Air 
        Force on December 22, 2015. Specifically, you can review the 
        eligibility guidance beginning on page 4.

  --How many pilots' service commitments expired in fiscal year 2016 
        and did not take a retention pay?
      A: 387 initial eligible pilots did not take the bonus in fiscal 
        year 2016 (51.6 percent did not take the bonus).

  --What is the percentage of pilots that separate if the retention pay 
        is not taken?
      A: Approximately 2 percent of retirement-eligible pilots do not 
        take a bonus. For pilots who do not take a bonus, 93 percent 
        separate prior to 20 years; the vast majority separate within 
        1-2 years of declining it.

  --How many pilots' service commitments expire in fiscal year 2017 
        and, to date, how many have opted-in the retention program?
      A: 708 pilots are eligible initially for the bonus in fiscal year 
        2017. As of August 14, 2017, 220 signed early last year and 29 
        more have signed long-term contracts in fiscal year 2017.

  --What was the rationale to exclude pilots whose service commitments 
        expired in fiscal year 2016 from the fiscal year 2017 retention 
        pay program?
      A: The Air Force did not offer a bonus to pilots whose service 
        commitments expired in fiscal year 2016 predominantly due to 
        two issues; (1) In discussions with Congress, concerns were 
        expressed the Air Force offered the bonus to everyone (and in 
        the same amount) in past years and was treating this as an 
        entitlement versus a retention tool; (2) There was the low 
        utilization rate. Historical data showed that the number of 
        pilots who signed a bonus after their original year of 
        eligibility was minimal (11Fs (Fighter Pilots): 5 of 112 (4.5 
        percent); 11Xs (All Pilots): 37 of 447 (8.3 percent)).

  --How many pilots are eligible in fiscal year 2018 for a retention 
        pay program?
      A: 814 pilots are eligible for the bonus in fiscal year 2018 
        initially.

    Question. The KC-46A program will deliver 179 aircraft by 2028, 
resulting in a tanker fleet of nearly 480 aircraft. General McDew 
testified last month TRANSCOM wargames have not recently considered the 
attrition of logistics platforms to include tankers. Following revised 
future wargame exercises, which will consider various levels of 
attrition of logistics platforms, TRANSCOM will re-visit total fleet 
size requirements for the tanker fleet. Additionally, General McDew 
further testified he is concerned about delayed delivery of the KC-46As 
and the immediate impacts to an aging tanker fleet. Based on future 
wargaming outcomes and drivers behind current delays being experienced 
in the Federal Aviation Administration (FAA) for the KC-46A 
certification: Will the Air Force purchase more KC-46As, beyond the 
179-contract, if new analysis from TRANSCOM indicates a greater tanker 
fleet size is required? Will the Air Force communicate FAA 
certification challenges and/or delays to the Senate Appropriations 
Committee-Defense Subcommittee, resulting in delays assessed at a total 
of 30-calendar days or greater, until delivery of the first KC-46A?
    Answer. As with any program of record, the purchase of additional 
aircraft must be balanced with other Air Force priorities. However, 
should US Transportation Command validate additional requirements, they 
would carry significant leverage during our budget deliberations. We 
will continue to update Congress on additional delays to the KC-46 
program.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. What is the Air Force's plan to continue development of a 
hypersonic capability alongside Sandia National Labs? How concerned are 
you about Russia and China's progress developing this capability?
    Answer. Our vision of the Air Force in the future includes game-
changing, multi-domain technologies like hypersonic vehicles, directed-
energy, unmanned and autonomous systems, and nanotechnology. In order 
to do this, significant investments, along with steady and predictable 
budgets, are required to modernize and increase capability across all 
domains while reversing negative trends in capacity and readiness 
levels. The Air Force is accelerating our research and development in 
hypersonics technologies. Our senior Air Force leaders met in March, 
2017 to define the way forward for our hypersonic capability 
development. However, we can't do it alone. This is a National 
issue...we need the Department--as part of a National network--to push 
the boundaries in this area and bring hypersonic capabilities to our 
warfighters. The U.S. has a long history in hypersonic research and 
development; however, we no longer enjoy preeminence in this area, 
particularly as it pertains to military applications. Several countries 
around the world (including China and Russia) are developing and 
testing their own hypersonic capabilities . . . in many cases using 
work gleaned from the U.S. As recently concluded by the Air Force 
Studies Board report on High Speed Maneuvering Weapons, the U.S. may be 
``facing a threat from a new class of weapons that will effectively 
combine speed, maneuverability, and altitude in ways that could 
challenge this Nation's tenets of global vigilance, reach, and power.''
    Question. The Air Force is responsible for two of the three legs of 
the triad, so it is no doubt that you have a keen interest in the life 
extension programs that are ongoing at the national labs. The plutonium 
mission at Los Alamos National Lab is one key part of the stockpile 
stewardship program. Would you be concerned about any changes which 
would increase the cost and stretch the timelines for meeting the 
plutonium requirements set-out by the Nuclear Weapons Council, 
including Strategic Command?
    Answer. Yes. It is imperative that we remain on schedule regarding 
plutonium requirement timelines to ensure production remains 
synchronized with Air Force nuclear modernization programs.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. The Air Force takes great strides every day to stay ahead 
of the A2/AD threat in the Pacific. The unfunded priority list for 
fiscal year 2018 identifies several requirements to support US Pacific 
Command's ability to sustain air operation in contested areas--vehicles 
and spare parts for expeditionary air fields, as well as medical 
equipment and prepositioned stocks of wartime materials for the 36th 
Contingency Group in Guam. What makes these important requirements for 
the Pacific and what risks are we taking [sic] by not funding them in 
this year's appropriations bills?
    Answer. The threats in the Pacific are rapidly advancing and our 
response thus far is not keeping pace. In order to maintain our 
competitive advantage we have rethought how we set the theater, defend 
our bases, and employ our forces to ensure effects for the JFC. First, 
we need to set the theater with manning, equipment and forces to enable 
our fight tonight requirement. This includes: Increasing the Air Force 
manning to 350,000 personnel to allow 24/7 operations, rapid fielding 
of additive F-35 forces in theater, increased forward-deployed C2ISR 
forces, fully funding the Guam-based Contingency Response Group 
capability to enable more base opening capacity, and increased critical 
munitions at survivable locations such as Guam. Both the set-the-
theater requirement and fully funding the Guam Contingency Response 
Group are on the Air Force unfunded list. Second, we need to invest in 
our new concept to provide for force resiliency known as Agile Combat 
Employment. This concept of operations allows us to be more 
maneuverable at the operational level but requires more operational 
sustainment and personnel. Finally, we need to rethink how we defend 
our airbases. We are currently on the wrong side of the cost curve with 
a $2-$10 million interceptor (Patriot/THAAD) going after a $300,000 
adversary munition. We need a deep-magazine active defense capability 
to defend against the now thousands of cruise and ballistic missiles 
that potential adversaries could bring to bear against our basing.
    Question. Recognizing the risk in this reliance, the Air Force has 
been working on a project that uses new energy and cyber technologies 
to provide reliable power to the 154th Wing of the Hawaii Air National 
Guard. Can I get your commitment that the Air Force is going to follow 
through on this project so that if the civilian grid goes down, the Air 
Guard can continue to protect Hawaii and support the Air Force's 
mission in the Pacific without any interruption?
    Answer. Based on current mission needs and funding availability, it 
is our intention to remain committed to this project.

                          SUBCOMMITTEE RECESS

    Senator Udall. With that, the subcommittee stands in 
recess. Thank you very much.
    [Whereupon, at 11:54 a.m., Wednesday, June 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
